No.
In the

Supreme Court of the United States

BALDASSARE AMATO,

Petitioner,

v.

UNITED STATES OF AMERICA,

Respondent.

-----------------------------------------ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

------------------------------------------

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
-----------------------------------------David I. Schoen
Counsel of Record
DAVID I. SCHOEN,
ATTORNEY AT LAW
2800 Zelda Road, Suite 100-6
Montgomery, AL 36106
(334) 395-6611
dschoen593@aol.com
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

APPENDIX
TABLE OF CONENTS
Summary Order
U.S. Court of Appeals For the Second Circuit
filed February 27, 2019 ............................... 1a
Order
U.S. District Court for the
Eastern District of New York
filed June 7, 2017 ...................................... 12a
Order
U.S. District Court for the
Eastern District of New York
filed April 6, 2017 ...................................... 14a
Order Denying Petition for Rehearing
U.S. Court of Appeals For the Second Circuit
filed May 20, 2019 ..................................... 90a

1a
[ENTERED FEBRUARY 27, 2019]
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED
BY
FEDERAL
RULE
OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING
A SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC
DATABASE
(WITH
THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
27th day of February, two thousand nineteen.
PRESENT: DENNIS JACOBS,
RICHARD J. SULLIVAN,
Circuit Judges,
EDWARD R. KORMAN,*
________________________

District Judge.

* Judge Edward R. Korman, of the United States District Court
for the Eastern District of New York, sitting by designation.

2a
‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐X
BALDASSARE AMATO,
Petitioner‐Appellant,
‐v.‐

17‐1782

UNITED STATES OF AMERICA,
Respondent‐Appellee.
‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐ ‐X
FOR APPELLANT:
David I. Schoen, Montgomery, AL.
FOR APPELLEE:
Andrey Spektor, Assistant United States Attorney
(Susan Corkery, Assistant United States Attorney, on
the brief), for Richard P. Donoghue, United States
Attorney for the Eastern District of New York,
Brooklyn, NY.
Appeal from a judgment of the United States
District Court for the Eastern District of New York
(Garaufis, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY
ORDERED,
ADJUDGED
AND
DECREED that the judgment of the district court be
AFFIRMED.
Petitioner‐Appellant Baldassare Amato appeals
from the judgment of the United States District Court
for the Eastern District of New York (Garaufis, J.)
dismissing his petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2255 (the “petition”). Amato
contends that his trial counsel was conflicted and
ineffective, and that the district court abused its
discretion in failing to conduct a hearing. We assume

3a
the parties’ familiarity with the underlying facts, the
procedural history, and the issues presented for
review. For the reasons explained below, we now
affirm.
In January 2004, Amato was indicted along with
27 other individuals for criminal activities of the
Bonanno crime family. Amato was charged with three
counts related to illegal gambling enterprises and a
single count of racketeering conspiracy that was
based on four predicate acts: the murder of
Sebastiano DiFalco (and conspiracy to do so), the
murder of Robert Perrino (and conspiracy to do so),
illegal gambling activities, and conspiracy to commit
robbery.
Amato proceeded to trial in the Eastern District of
New York (Garaufis, J.) alongside two co‐defendants.
He was initially represented by counsel appointed
under the Criminal Justice Act, but later privately
retained Diarmuid White, who represented him
before and during the trial, at sentencing, and on
appeal. Together with his notice of appearance, White
filed a letter notifying the district court of a potential
conflict of interest resulting from his previous
representation of Joseph Massino, a former “boss” of
the Bonanno family.
White’s representation of
Massino lasted approximately eight months and
involved providing support for Massino’s primary
defense counsel in preparation for Massino’s trial.
White assured the court that he recalled no material
information, confidences, or secrets from his
representation of Massino, but nevertheless stated
his intention to engage co‐counsel to cross‐examine
Massino if he were to testify against Amato at trial.
White argued that there was no “serious potential
conflict” requiring his disqualification, “and likely no

4a
potential conflict at all.” Special Appendix (“SA”) at 5.
White further advised that Amato was prepared to
waive any potential conflict of interest at a Curcio
hearing.
In a second letter to the court, White stated that
since Amato could not afford to retain co‐counsel,
White would cross‐examine Massino himself if
necessary, steering clear of any cross‐examination
based on his privileged communications with
Massino. And since any potential conflict of interest
remained waivable, Amato remained “prepared to
make all appropriate Curcio waivers.” SA at 7.
The court did not hold a Curcio hearing, and
during the six‐week trial, Massino was not called as a
witness. All three defendants were convicted by a jury
on all counts, with a specific jury finding that the
government had proven Amato guilty of the predicate
acts listed in the racketeering conspiracy count.
Amato
was
sentenced
principally
to
life
imprisonment, and his conviction was affirmed by
this Court on direct appeal. United States v. Amato,
306 F. App’x 630, 634‐35 (2d Cir. 2009) (summary
order).
The instant petition, filed in February 2011,
asserts nine challenges to the conviction and requests
discovery and an evidentiary hearing. On April 5,
2017, the district court denied discovery and an
evidentiary hearing, and dismissed the petition in
full. The court subsequently issued a certificate of
appealability as to Amato’s claim of ineffective
assistance of counsel; accordingly, only that claim is
before this Court. See Fed. R. App. P. 22(b).
On appeal, Amato argues that he was denied his
Sixth Amendment right to effective assistance of

5a
counsel because White operated under an actual
conflict of interest that adversely affected his
performance, and otherwise failed to provide effective
assistance at trial and on appeal. Amato additionally
claims that the district court erred in failing to hold
an evidentiary hearing on his ineffective assistance
claims.
“In the § 2255 context, this Court reviews ‘factual
findings for clear error’ and ‘questions of law de
novo.’” Triana v. United States, 205 F.3d 36, 40 (2d
Cir. 2000) (quoting Scanio v. United States, 37 F.3d
858, 859 (2d Cir. 1994)). “The question of whether a
defendant’s lawyer’s representation violates the Sixth
Amendment right to effective assistance of counsel is
a mixed question of law and fact that is reviewed de
novo.” Id. (quoting United States v. Blau, 159 F.3d 68,
74 (2d Cir.1998)).
1. The Sixth Amendment right to counsel
includes a right to conflict‐free representation. See
Wood v. Georgia, 450 U.S. 261, 271 (1981) (citing
Cuyler v. Sullivan, 446 U.S. 335 (1980) and Holloway
v. Arkansas, 435 U.S. 475 (1978)). Nevertheless, the
burden of proof rests on Amato to show a conflict of
interest by a preponderance of the evidence. Triana,
205 F.3d at 40 (citing Harned v. Henderson, 588 F.2d
12, 22 (2d Cir. 1978)).
Amato first argues that he is entitled to automatic
reversal of his conviction because the district court
failed to take the required measures when it had
notice of White’s potential conflict. Specifically,
Amato argues that the district court had an obligation
to inquire further into the potential conflict; ensure
that Amato understood the potential risks of White’s
representation; and deal with the conflict by

6a
appointing independent counsel to advise Amato
regarding the conflict, or protect Amato by other
means.
However, a “trial court’s failure to inquire into a
potential conflict of interest on the part of the
defendant’s attorney, about which the court knew or
reasonably should have known, does not
automatically require reversal of the conviction.”
United States v. Blount, 291 F.3d 201, 211 (2d
Cir.2002) (citing Mickens v. Taylor, 535 U.S. 162, 172
(2002)). Instead, “[t]he constitutional question must
turn on whether trial counsel had a conflict of interest
that hampered the representation, not on whether the
trial judge should have been more assiduous in taking
prophylactic measures.” Id. at 212 (quoting Mickens,
535 U.S. at 179 (Kennedy, J., concurring)). “As the
Sixth Amendment guarantees the defendant the
assistance of counsel, the infringement of that right
must depend on a deficiency of the lawyer, not of the
trial judge. There is no reason to presume this
guarantee unfulfilled when the purported conflict has
had no effect on the representation.” Id. (quoting
Mickens, 535 U.S. at 179 (Kennedy, J., concurring)).
A narrow exception requiring automatic reversal
exists “only where defense counsel is forced to
represent codefendants over his timely objection,
unless the trial court has determined that there is no
conflict.” Mickens, 535 U.S. at 168 (citing Holloway,
435 U.S. at 488).
White certainly did not object to the
representation. To the contrary, he affirmatively
argued that any potential conflict was waivable, and
repeatedly affirmed Amato’s willingness to waive.
Moreover, White did not represent Amato and
Massino
concurrently;
his
relatively
brief

7a
representation of Massino terminated more than two
years before he was retained by Amato. Automatic
reversal is therefore unwarranted here. Mickens, 535
U.S. at 168.
Amato nevertheless argues that the writ should be
granted because White had an actual conflict of
interest that adversely affected his performance as
counsel. A defendant claiming ineffective assistance
of counsel on the basis of an actual conflict of interest
must demonstrate that the conflict “affected counsel’s
performance.” Id. at 171. In order to demonstrate that
a conflict adversely affected White’s representation,
Amato must show that at least some plausible defense
strategy was forgone as a consequence of White’s
conflict of interest. United States v. Schwarz, 283
F.3d 76, 92 (2d Cir. 2002). And the plausibility of an
alternative strategy must rise above mere
speculation. See Eisemann v. Herbert, 401 F.3d 102,
108 (2d Cir. 2005).
According to Amato, the main government witness
against him was Sal Vitale, an underboss of the
Bonanno family, who testified about statements
about Amato made to Vitale by Massino‐‐Amato’s co‐
conspirator. Amato argues that White’s dual loyalties
to Massino and Amato created the actual conflict, and
that the conflict prevented him from adequately
challenging that testimony by, inter alia, using
allegedly exculpatory evidence, calling Massino as a
defense witness, and otherwise employing defense
strategies that could conflict with Massino’s interests.
Although there is a “high probability of prejudice
arising from multiple concurrent representation[,] . . .
[n]ot all attorney conflicts present comparable
difficulties”; therefore, “the Federal Rules of Criminal

8a
Procedure treat concurrent representation and prior
representation differently.” Mickens, 535 U.S. at 175.
It is unclear under governing caselaw whether an
actual conflict existed here based on successive
representation, particularly given White’s disclaimer of
memory of confidential information from his
representation of Massino.
In any event, Amato has failed to show that
White’s alleged conflict caused him to forgo a
plausible defense strategy. On the contrary, White
vigorously cross‐examined Vitale at trial, including
by impeaching his testimony against Amato with
testimony he gave in Massino’s trial. White went on
to emphasize the inconsistencies in Vitale’s testimony
during summation.
As to White’s decision to forgo calling Massino as
a witness, it is “speculation to suggest that his
testimony would have been exculpatory.” See
Eisemann, 401 F.3d at 108. Indeed, given that
Massino, the former boss of the Bonanno family, had
become a government cooperator by the time of
Amato’s trial, his testimony was much more likely to
be damaging to Amato. And while Amato makes much
of Massino’s notations on FBI 302 reports (“302s”)‐‐
which included handwritten notes that Vitale’s
statements were “all lies” and that Massino knew
“nothing about [Amato’s crimes]”‐‐there is absolutely
no evidence in the record to suggest that Massino‐‐
who by the time of Amato’s trial had become a
cooperating witness‐‐would testify in conformity with
those pre‐cooperation notes. Nor did White shy away
from eliciting testimony at trial regarding Massino’s
crimes and general untrustworthiness.

9a
While the district court assumed, without
deciding, that Amato alleged plausible, alternative
strategies, we see nothing in the record to suggest
that such plausible alternative options existed. See
Eisemann, 401 F.3d at 110 (dismissing 28 U.S.C. §
2254 petition where there was “nothing in the record
to suggest that [counsel’s] conflict caused him to forgo
a plausible defense theory”).
2. Amato argues that White provided ineffective
assistance of counsel for additional reasons that are
unrelated to the alleged conflict of interest. When
“assessing a claim that a lawyer’s representation did
not meet the constitutional minimum, we indulge a
strong presumption that counsel’s conduct fell within
the wide range of professional assistance.” Lynch v.
Dolce, 789 F.3d 303, 311 (2d Cir. 2015) (internal
quotation marks and alterations omitted). This strong
presumption may be overcome only by establishing
that: (1) “counsel’s representation fell below an
objective standard of reasonableness”; and (2) “any
deficiencies in counsel’s performance [were]
prejudicial to the defense.” Strickland v. Washington,
466 U.S. 668, 688, 692 (1984).
To demonstrate White’s allegedly ineffective
assistance, Amato points to the precluded testimony
of three witnesses who Amato contends would have
testified about prior statements by Vitale that were
inconsistent with his trial testimony. While the
district court precluded this testimony because White
failed to lay a proper foundation on cross‐examination
for Vitale’s alleged prior inconsistent statements, the
district court acknowledged that White reasonably
expected the government to call these three witnesses
in its case‐in‐chief. Given this “good‐faith”
expectation, White’s failure to lay a proper foundation

10a
for Vitale’s inconsistent statements during cross‐
examination did not fall below an “objective standard
of reasonableness.” Strickland, 466 U.S. at 688.
Additionally, Amato argues that White improperly
failed to introduce Massino’s handwritten notes on
the 302s to defend against the murder charges. But
it was not objectively unreasonable for White not to
call Massino, since calling him as a witness would
have subjected Amato to the reasonable likelihood
that
Massino‐‐by
now
a
cooperator‐‐would
corroborate, not contradict, Vitale’s statements. See,
e.g., Greiner v. Wells, 417 F.3d 305, 323 (2d Cir. 2005)
(“[D]eference is particularly apt where, as here, an
attorney decides not to call an unfriendly witness to
the stand and has precious little means of
determining how the witness might testify.”).
The evidence that White allegedly failed to obtain
and use is described in Amato’s brief in the sketchiest
of detail. In any event, the district court evaluated it
when considering Amato’s petition, and found that it
was cumulative, immaterial, or otherwise insufficient
to show that White was objectively unreasonable in
failing to introduce it at trial. We identify no error in
the district court’s conclusions.
Therefore, because Amato has failed to show that
his counsel’s representation fell below an objective
standard of reasonableness, his ineffective assistance
claim fails, and we need not evaluate the prejudice
issue under Strickland. 466 U.S. at 697.
3. Finally, Amato argues that the district court
erred in denying an evidentiary hearing with regard
to his ineffective assistance claims. We review a
district court’s decision as to what kind of hearing, if
any, is appropriate on a § 2255 motion for abuse of

11a
discretion. Gonzalez v. United States, 722 F.3d 118,
131 (2d Cir. 2013). “A court abuses its discretion when
it takes an erroneous view of the law, makes a clearly
erroneous assessment of the facts, or renders a
decision that cannot be located within the range of
permissible decisions.” Id.
“[W]hen the judge who tried the underlying
proceedings also presides over a § 2255 motion, a full‐
blown evidentiary hearing may not be necessary,”
Raysor v. United States, 647 F.3d 491, 494 (2d Cir.
2011) (citing Puglisi v. United States, 586 F.3d 209,
214‐15 (2d Cir. 2009)), and our precedent “permits a
‘middle road’ of deciding disputed facts on the basis of
written submissions,” id. (quoting Pham v. United
States, 317 F.3d 178, 184 (2d Cir. 2003)).
The district court determined that, given the
existing record and White’s sworn statement to the
court addressing the petition’s claims, there was a
sufficient basis to find that Amato failed to assert a
plausible claim for ineffective assistance of counsel. In
particular, White signed a sworn declaration stating
that he could not recall why he decided not to call
Massino, minimizing any potential benefits of holding
an evidentiary hearing. The court therefore did not
abuse its discretion when it concluded that Amato
failed to meet the required showing for an evidentiary
hearing.
We have
considered Amato’s remaining
arguments and conclude they are without merit.
Accordingly, the judgment of the district court is
AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

12a
[ENTERED JUNE 7, 2017]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
---------------------------------------------------------------------X
BALDASSARE AMATO,
Petitioner,
ORDER
-against-

11-CV -5355 (NGG)

UNITED STATES OF AMERICA,
Respondent.
---------------------------------------------------------------------X
UNITED STATES OF AMERICA,
-against-

03-CR-1382-13 (NGG)

BALDASSARE AMATO,
Defendant.
---------------------------------------------------------------------X
NICHOLAS G. GARAUFIS, United States District
Judge.
On April 5, 2017, the court denied Petitioner
Baldassare "Baldo" Amato's petition for a writ of
habeas corpus under 28 U.S.C. § 2255. (Apr. 5, 2017,
Mem. & Order (Dkt. 48) (denying Pet. (Dkt. 1)).) On
June 2, 2017, Petitioner filed a notice of appe~l. (Not.
of Appeal (Dkt. 49).) The court is therefore called upon
to determine whether a certificate of appealability
("CO A") shall issue. 28 U.S.C. §§ 2253(c)(l); see also
Fed. R. App. P. 22(b); 2d Cir. Local R. 22.1(a).

13a
A COA "may issue ... only if the applicant has
made a substantial showing of the denial of a
constitutional right." 28 U.S.C. § 2253(c)(2). In
addition, the COA must "indicate which specific issue
or issues satisfy" that standard. Id. § 2253(c)(3). As
the Supreme Court has emphasized:
The COA inquiry ... is not coextensive with a
merits analysis. At the COA stage, the only
question is whether... "jurists of reason could
disagree with the district court's resolution of
[the petitioner's] constitutional claims or that
jurists could conclude the issues presented are
adequate to deserve encouragement to proceed
further."
Buckv. Davis. — U.S. 137 S. Ct. 759, 773 (2017)
(quoting Miller-El v. Cockrell 537 U.S. 322,327
(2003)).
Under this standard, the court concludes that a
certificate of appealability SHALL ISSUE, but only
with regard to Petitioner's claims of ineffective
assistance of counsel. (See Apr. 5, 2017, Mem. &
Order at 22-54.) With regard to Petitioner's eight
other claims (see id. at 55-58), the court fmds that
Petitioner failed to make a "substantial showing of
the denial of a constitutional right." 28 U.S.C. §
2253(c)(2).
SO ORDERED.
Dated:

Brooklyn, New York
June 6, 2017
s/Nicholas G. Garaufis
NICHOLAS G. GARAL
United States District Judge

14a
[ENTERED APRIL 6, 2017]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
---------------------------------------------------------------------X
BALDASSARE AMATO,
Petitioner,
MEMORANDUM & ORDER
-against-

11-CV -5355 (NGG)

UNITED STATES OF AMERICA,
Respondent.
---------------------------------------------------------------------X
UNITED STATES OF AMERICA,
-against-

03-CR-1382-13 (NGG)

BALDASSARE AMATO,
Defendant.
---------------------------------------------------------------------X
NICHOLAS G. GARAUFIS, United States District
Judge.
Before the court is Petitioner Baldassare "Baldo"
Amato's petition for a writ of habeas corpus pursuant
to 28 U.S.C. § 2255 (the "Petition"). (Pet. (Dkt. 1).) 1
Petitioner asserts nine claims, but his principal
Unless otherwise indicated, all record citations refer to
Petitioner's habeas docket, Case No. 11-CV-5355. The court uses
"Trial Dkt." to indicate citations to Petitioner's criminal trial
docket, Case No. 03-CR-1382-13.
1

15a
argument is that he received ineffective assistance of
counsel at trial and on direct appeal. For the reasons
stated below, the Petition is DISMISSED.
I. BACKGROUND
The sections that follow review Petitioner's
criminal charges, trial, and direct appeal. The court
assumes the parties' familiarity with the extensive
underlying proceedings, and summarizes the re_cord
only to the extent necessary for the court's habeas
review.
A. The Criminal Charges
In January 2004, the United States of America
(the "Government") filed a Superseding Indictment
against Petitioner and 27 other individuals, alleging
several crimes in connection with the activities of the
Bonanno crime family, also known as La Cosa Nostra.
(See generally Superseding Indictment (Trial Dkt. 4).)
The Bonanno family was accused of"generat[ing]
money ... through various criminal activities,
including drug trafficking, extortion, illegal gambling,
loansharking and robbery. The members and
associates of the Bonanno family also furthered the
enterprise's criminal activities by threatening
economic injury and ... physical violence, including
murder." (Id. ¶ 9.)
Petitioner was charged with four counts: one count
of racketeering conspiracy in violation of the
Racketeer Influenced and Corrupt Organizations Act
("RICO"), 18 U.S.C. § 1962(d) (see id. ¶¶ 13-15); and
three counts related to illegal gambling enterprises,
in violation of 18 U.S.C. §§ 371 and 1955 (see id. ¶¶
114-17). The RICO count was based on four predicate
acts: the murder of Sebastiana DiFalco and

16a
conspiracy thereof (the "DiFalco Murder"); the
murder of Robert Perrino and conspiracy thereof (the
"Perrino Murder"); illegal gambling activities; and
conspiracy to commit robbery. Id. ¶¶ 63, 71, 81-86,
100.)
Petitioner's case was consolidated with seven
other codefendants' and styled as "Urso I." (See Feb.
2, 2006, Order (Trial Dkt. 600).) The only Urso I
defendants who proceeded to trial were Petitioner,
Anthony Basile, and Steven LoCurto. These two
codefendants faced charges of racketeering
conspiracy based on predicate acts of murder, drug
distribution, and (for Basile only) loansharking. (See
Revised Idictment for Urso I Defs. (Trial Dkt. 672-1).)
B. Trial Counsel's Conflict of Interest
Petitioner was initially represented by counsel
appointed under the Criminal Justice Act. (See Feb.
13, 2004, Min. Entry (Trial Dkt.).) This
representation included the arraignment, where
Petitioner pled "not guilty" to all counts (see Feb. 17,
2004, Min. Entry (Trial Dkt. 67)), and continued
through early discovery and pre-trial motion practice.
Petitioner privately retained Diarmuid White in
January 2006. (Not. of Att'y Appearance (Trial Dkt.
577).) White represented Petitioner thereafter
through pre-trial procedures, trial, sentencing, and
appeal.
1. White's First Letter
When White filed his notice of appearance, he also
filed a letter notifying the court of a potential conflict
of interest based on his prior representation of Joseph
Massino, a former Bonanno family "boss." (Jan. 9,
2006, Ltr. re Curcio Hr'g ("1st White Ltr.") (Trial Dkt.

17a
578); Superseding Indictment ¶ 8 ("At various times,
Joseph Massino was the boss of the Bonanno
family.").) In separate criminal proceedings before
this court, Massino had already received concurrent
life sentences for crimes related to the Bonanno
family. (See J. (Dkt. 901), United States v. Massino,
No. 02-CR-307-27 (NGG) ("Massino I"); see also
United States v. Massino, No. 03-CR-929-1 (NGG)
("Massino II").) He subsequently became a
Government cooperator.
White explained that he was one of multiple
unaffiliated attorneys who supported Massino's
primary defense counsel in the early phases of trial
preparation. (1st White Ltr. at 2; see generally
Massino
1.)
White's
engagement
lasted
approximately eight months. (Id.) "Massino
discharged White prior to [any pre-trial] motions
being filed on his behalf." (1st White Ltr. at 3.) White
stated that he could "recall no material information or
confidences and secrets conferred upon [him] by
Massino." (Id.)
Nonetheless, as a precautionary measure, White
stated his intention to engage co-counsel, who would
cross-examine Massino if he were to "testify against
Amato," an eventuality that was "by no means
certain." (Id. at 1.) "Under these circumstances,"
White argued that there was "no 'serious potential
conflict'" that would require his disqualification, "and
likely no potential conflict at all." (Id. at 3 (quoting the
standard for disqualification established in United
States v. Schwarz, 283 F.3d 76 (2d Cir. 2002)).) White
concluded that "any potential conflict of interest is
clearly waivable," and stated that "defendant Amato
is prepared to make any appropriate waivers at a
Curcio hearing." (Id. at 2 (internal quotation marks

18a
omitted).) See also United States v. Velez, 354 F.3d
190, 198 (2d Cir. 2004) (The purpose of a Curcio
hearing is "to determine whether the defendant
knowingly and intelligently waives his right to
conflict-free representation." (citing United States v.
Curcio, 680 F.2d 881, 888-90 (2d Cir. 1982))).
2. The January 2006 Status Conference
The parties discussed White's letter at a status
conference on January 23, 2006 (the "January 2006
Status Conference"). The Government explained that
Massino was a "potential witness," and that Massino's
current counsel had not yet indicated whether
Massino would consent to "waive any attorney-client
privilege or duty of loyalty, or any duty remaining
from Mr. White's representation." (Jan. 2006 Status
Conf. Tr. (Dkt. 33-1) at 38:14-19.) The Government
stated its position that, if "[Massino] does not waive
that issue, that Mr. White should be disqualified from
the case." 2 (Id. at 38:22-24.) White responded that
Massino's "waiver is not required in any respect," and
Based on this statement, Petitioner contends that the
Government "unequivocally took the position ... that Mr. White
suffered from a disqualifying conflict of interests," and argues
that the Government "should be estopped from taking any
contrary position" in these habeas proceedings. (Pet'r's July 4,
2013, Ltr. (Dkt. 33) at 4.) The court disagrees. A district court is
empowered to disqualify an attorney in "cases where a potential
for conflict exists·which may or may not burgeon into an actual
conflict as the trial progresses." United States v. Cain, 671 F.3d
271, 294 (2d Cir. 2012) (quoting Wheat v. United States, 486 U.S.
153, 163 (1988)). The Government's position in favor of
precautionary disqualification before trial--especially when the
Government was still considering Massino as a potential
witness--does not preclude the Government, on collateral review,
from arguing that defense counsel's performance was
constitutionally satisfactory.
2

19a
noted that he was not "request[ing] a waiver with
respect to the attorney-client privilege." (Id. at 39:1013.) White restated his intention that cocounsel would
conduct any necessary cross-examination of Massino,
and reaffirmed his position that "[t]his is eminently a
waivable conflict." (Id. at 39:8-10.)
3. White's Second Letter
On February 16, 2006, White sent a letter
notifying the court that, "confronted with the reality
of a trial" that could last up to three months,
Petitioner was "unable to marshal the resources to
retain two lawyers." (Feb. 16, 2006, Ltr. re Curcio
Waiver ("2d White Ltr.") (Trial Dkt. 609) at 1.)
Consequently, White intended "to try the case
without co-counsel and," if necessary, to crossexamine Massino himself. (Id.) White acknowledged
that he "would not seek to cross-examine Massino
based on any privileged communication, unless
[Massino] waived the privilege." (Id. at 1-2.) White
maintained that "[t]his modified position ... [did] not
render any potential conflict of interest unwaivable,"
and reiterated that "Defendant Amato [was] prepared
to make all appropriate Curcio waivers." (Id.)
4. Subsequent Developments
The court did not hold a Curcio hearing for
Petitioner, nor did either party notify the court of any
waivers
from
Massino
regarding
White's
representation. (See Gov't Mem. in Opp'n to Pet.
("Gov't Opp'n") (Dkt. 24) at 25; Pet'r's July 4, 2013,
Ltr. (Dkt. 33) at 5.) Before the trial began, the
Government stated that it did not intend to call
Massino as a witness. (May 22, 2006, Gov't Mot. in
Lim. (Trial Dkt. 713) at 6.) None of the Urso I
defendants called Massino as a defense witness.

20a
C. Evidence Adduced at Trial Regarding the
DiFalco and Perrino Murders
Petitioner was a "made" member and longtime
"soldier" in the Bonanno family. (See, e.g., Trial Tr. 3
296:1-2,335:16-336:6 (testimony of Salvatore Vitale);
Tr. 2091:22-2092:3 (testimony of Frank Lino); Tr.
2539:6-10 (testimony of Frank Ambrosino).) His RICO
charge included four predicate acts related to the
Bonanno criminal enterprise, but Petitioner's habeas
claims focus almost exclusively on the predicate acts
of murder and conspiracy to murder as to Sebastiana
DiFalco and Robert Perrino. The following sections
summarize the portions of the trial record that relate
to Petitioner's habeas claims. Undisputed background
facts are provided without citations to the record.
1. The DiFalco Murder
Samuel "Sammy" DiFalco owned and operated a
restaurant (the "Giannini restaurant") that was
frequented by members of the Bonanno family.
Various Bonanno members testified that DiFalco was,
in fact, Petitioner's associate and that Petitioner had
a financial stake in the restaurant. (See Tr. 382:18383:6 (Vitale); Tr. 1068:5-13 (Anthony Tabbita); Tr.
Unless otherwise specified, all citations to "Tr." reference the
transcript ofPetitioner's criminal trial. This opinion cites to the
following portions of the trial transcript (all dates in 2006): May
31 Trial Tr. 251-463 (Trial Dkt. 1039); June 1 Trial Tr. 464-474
(Trial Dkt. 1040); June 12 Trial Tr. 1001-1187 (Trial Dkt. 1041);
June 16 Trial Tr. 1405-1627 (Trial Dkt. 1042); June 19 Trial Tr.
1628-1868 (Trial Dkt. 1046); June 20 Trial Tr. 1871-2144 (Trial
Dkt. 1049 (mislabeled on ECF as June 29, 2006)); June 21 Trial
Tr. 2129-2425 (Trial Dkt. 1047); June 23 Trial Tr. 2428-2675
(Dkt. 1048); June 26 Trial Tr. 2678-2978 {Trial Dkt. 1033); July
5 Trial Tr. 3386-3519 (Trial Dkt. 1026); July 6 Trial Tr. 35203725 (Dkt. 1045).
3

21a
1832:19-1833:21 (Lino).) DiFalco went missing on
February 27, 1992. The police discovered his body
three weeks later in the trunk of his daughter's car,
which had been reported stolen. DiFalco had been
shot twice in the back of the head.
Petitioner was implicated in the murder by two
cooperating witnesses, Salvatore "Sal" Vitale, a
former "underboss" of the Bonanno family, and
Anthony Tabbita, a former Bonanno "associate." The
Government bolstered its case by arguing that
Petitioner acted suspiciously in the days and weeks
after DiFalco's disappearance. White sought to
preclude or limit Vitale's testimony. When those
efforts failed, White argued that the Government's
case amounted to nothing more than circumstantial
evidence. (Tr. 3622:25-3623:4 (White summation).)
White attacked the credibility and character of key
witnesses, posited that certain witnesses had
fabricated their accounts in order to cover up their
own criminal activity or secure better plea deals from
the Government, and offered innocent alternative
explanations for Petitioner's allegedly suspicious
conduct.
a. Government Witness Sal Vitale
Vitale was a Bonanno underboss, meaning that he
outranked Petitioner in the Bonanno family. Vitale
testified that, dwing a conversation with Massino at
an unspecified time in the 1990s, Massino "said that
Baldo killed Sam because he thought Sam was
robbing from the [Giannini] restaurant." (Tr. 389:1120.) Vitale's anticipated testimony on this point was
the
subject
of
pre-trial
motions
and
a
contemporaneous objection during trial. White also
sought to undermine Vitale's credibility. The court

22a
reviews these legal maneuverings in detail because of
their importance for Petitioner's habeas claims.
i. Pre-Trial Motions Concerning Vitale's
Testimony
Before trial, White sought to preclude Vitale's
anticipated testimony regarding the conversation
with Massino on the grounds that (1) Massino' s
statement constituted "idle chatter" that did not
qualify for the RICO co-conspirator hearsay exception
under Federal Rule of Evidence 80l(d)(2)(E); (2)
admission of Vitale's statement would violate the
Confrontation Clause unless the Government could
establish that "Massino had [a] sufficient nonhearsay basis for his professed knowledge of the
DiFalco murder"; and (3) the testimony should be
excluded as unduly prejudicial under Rule 403. (See
May 18, 2006, Amato Mot. in Lim. (Trial Dkt. 690).)
The court denied White's motion as to Rule 403,
finding Massino's statement to be "probative of
[Petitioner's involvement in] the racketeering
conspiracy" and "not substantially outweighed by
unfair prejudice." (May 26, 2006, Mem. & Order (Trial
Dkt. 731) at 15.) As to White's other arguments, the
court "den[ied the] motion as premature until the
direct examination of Salvatore Vitale." (Id.)
Meanwhile, the Government sought to preclude all
codefendants from referencing certain handwritten
notes made by Massino on FBI "FD-302" reports, the
FBI's report format for summarizing interviews. (See
May 22, 2006, Gov't Mot. in Lim. at 4.) The
Government had disclosed "various FBI-302 reports"
to Massino when he was preparing for his own
criminal trials (before he was convicted and agreed to
become a Government cooperator). (Id.) Vitale's 302

23a
recounted Massino's remark that Petitioner had
DiFalco killed because of a monetary dispute
concerning the restaurant. (See Vitale 302 Report
(Dkt. 29-12).) "During [Massino's] trial preparation,
Massino made handwritten notes on Vitale's 302 in
which he denied that the conversation ever took
place" (the "302 Notes"). (Gov't Opp'n at 26; see also
Vitale 3 02 Report.)
At Petitioner's trial, the Government sought to
"preclude defense reference to the substance" of the
302 Notes on hearsay grounds, and argued further
that "there can be no good faith basis for believing
that any government witness in this trial would have
their recollection refreshed by reviewing Massino's
notes." (May 22, 2006, Gov't Mot. in Lim. at 4.) White
responded that he "[did] not intend to refer to [the 302
Notes] if Massino does not testify." (May 25, 2006,
Amato Resp. to Mot. in Lim. {Trial Dkt. 725) at 1.) The
court found "that Joseph Massino's handwritten notes
on F.B.I. 302 reports constitute [] out of court
statements" offered to prove the truth of the matter
asserted and "are therefore precluded by Rules 801
and 802" of the Federal Rules of Evidence. (May 26,
2006, Mem. & Order at 3.)
White subsequently revised his position in
response to the Government's proffered basis for
Massino's knowledge, namely "that Massino spoke to
Amato and Amato told him" about the DiFalco
murder. (May 27, 2006, Amato Mot. for Reconsid.
(Trial Dkt. 734).) White advised the court that, should
Mas sino's statement to Vitale be deemed "admissible
as a statement of a coconspirator in furtherance of the
conspiracy," the 302 Notes "would be admissible
under [Federal Rule of Evidence] 806 to attack the
credibility of the declarant, Massino." (Id. (citing Fed.

24a
R Evid. 806 (When a co-conspirator statement "has
been admitted in evidence, the declarant's credibility
may be attacked, and then supported, by any evidence
that would be admissible for those purposes if the
declarant had testified as a witness.").)
Finally, White made a request under Brady v.
Maryland, 373 U.S. 83 (1963), for the Government to
produce "any information, whether reduced to writing
or not, reflecting any inconsistency between what
Salvatore Vitale has stated Joseph Massino told him
about the Sebastiana DiFalco homicide and what
Massino has stated about that homicide or his
conversation with Vitale concerning it." (May 26,
2006, Amato Brady Mot. (Trial Dkt. 729).) It does not
appear that any such information was produced.
ii. White's Objection to Vitale's Testimony
At trial, the Government asked Vitale to describe
the conversation he'd had with Massino regarding the
circumstances of DiFalco's death. (Tr. 384:1-385:5.)
White objected and requested a sidebar, arguing that
the Government had failed to establish a non-hearsay
basis for Massino's knowledge. (Tr. 385:6-386:7.)
White also "ask[ed] for an evidentiary hearing with
Joe Massino." (Tr. 386:17-18.) For "something as
important as this," White argued, the court could not
"just accept a proffer" as to the basis for Massino's
knowledge, and should bring him "in here to testify to
that at a hearing.". (Tr. 386:17-23.)
The Government responded that (1) the testimony
could properly be introduced on the grounds that
Massino, Vitale, and Petitioner were all coconspirators in the Bonanno racketeering conspiracy;
(2) the Government was not "required to elicit from
the witness the basis for Mr. Massino's knowledge";

25a
(3) the Government had "already proffered the basis"
for Massino' s knowledge, namely that he had spoken
to Petitioner; and (4) "it is obvious" that the
information would have to have come from within the
Bonanno family because "no one outside the crime
family [would] tell them" about one Bonanno member
killing another. (Tr. 386:8-16, 387:7-20; see also May
26, 2006, Gov't Resp. to Mot. in Lim. (Trial Dkt. 728)
at 9-10 (previewing these arguments during motions
in limine).)
The court overruled White's objection and denied
the request for a hearing. (Tr. 388:11-12.) After Vitale
testified, White renewed his objection with
arguments under the Confrontation Clause and the
Due Process Clause, arguing that, because Massino
was "available to the government to call" as a witness,
it was "unfair to introduce his statements without
calling him." (Tr. 473:6-11.) The court rejected White's
renewed objection in a written opinion. (June 8, 2006,
Mem. & Order (Trial Dkt. 770).)
iii. White's Defense Strategy Regarding
Vitale's Testimony
During White's summation, he warned the jury "to
be cautious about" statements allegedly made by
"people who didn't testify." (Tr. 3626:24-25.) He
reminded the jury that Vitale had no personal
knowledge of Petitioner's involvement in the DiFalco
murder; rather, Vitale was relying on Massino's word,
and Vitale himself had admitted that Massino was a
"calculating" person who lied even to members of the
Bonanno family. (Tr. 3623:21-3626:25; see also Tr.
403:18-405:18,409:9-18 (Vitale cross-examination).)
White also spent considerable time attacking
Vitale's credibility. White emphasized repeatedly that

26a
Vitale had admitted to participating in eleven
murders. (See, e.g., Tr. 3696:9-14, 3698:20, 3703:1-6,
3704:23-24, 3705:3-5 (White summation).) White also
characterized Vitale as a "maestro" of deceit, a
"fraud," a man who "minimized his role in everything"
and "has no problem" implicating members of the
Bonanno family in order to divert suspicion from his
own activities or to negotiate a better deal with the
Government. (Tr. 3694:15-3695:24, 3703:19; see also
Tr. 3696:4-3704:22.)
b. Government Witness Anthony Tabbita
Tabbita was "on record" with Petitioner in the
early 1990s (Tr. 1059:13-17), meaning that Tabbita
was not yet a "made" Bonanno member, and so he
participated in Bonanno activities under Petitioner's
supervision. Prior to Petitioner's trial, Tabbita had
already implicated Petitioner in the DiFalco murder
while testifying in two other criminal trials. At
Petitioner's trial, the Government presented Tabbita
with that prior testimony, but Tabbita stated that he
did not remember giving it. (Tr. 1479-82.) He did,
however, testify to the following account. Tabbita was
asked by one of Petitioner's known associates to assist
with a plot to kill DiFalco. (Tr. 1077:19-23, 1080:1422.) Tabbita understood this request to be coming
indirectly from Petitioner himself. (Tr. 1071:10-14,
1080:18-22.) Tabbita participated in two failed
murder attempts against DiFalco (Tr. 1 082-86), but
was then arrested and convicted on state charges in
1992. DiFalco was killed while Tabbita was
incarcerated. (Tr. 1087:1-12.)
When asked why Petitioner "wanted [DiFalco]
dead," Tabbita said he "believed it was over money."
(Tr. 1087:21-23.) Tabbita testified that he did not

27a
know anyone named Salvatore Vitale. (Tr. 1088:8-14.)
The Government's summation emphasized that
Tabbita and Vitale had offered similar accounts of
Petitioner's role in and motive for the DiFalco
murder, even though the two witnesses did not know
each other and had never discussed these details. (Tr.
3502:21-3503:5.)
As with Vitale, White went to great lengths to
undermine Tabbita's creditability, describing him as
a "psychopath" who had pled guilty to multiple
murders. (Tr. 3618:7-12, 3635:24, 3645:5-11 (White
summation).) "[O]f all the witnesses in this trial,"
White argued that Tabbita was "by far the most
untrustworthy." (Tr. 3636:5-6.) White also attacked
the substance of Tabbita's testimony, arguing that the
Government prodded him with leading questions and
overstated the significance of his vague or uncertain
answers. (See Tr. 3637:4-3643:23, 3648:20-3652:21.)
Finally, White suggested that Tabbita had a personal
motive to murder DiFalco, and that he was framing
Petitioner in an attempt to cover his own tracks. (See
Tr. 3648:8-16, 3654:17-3655:21.)
c. Petitioner's Suspicious Conduct Following
DiFalco's Disappearance
As indirect evidence of Petitioner's guilt, the
Government elicited testimony regarding Petitioner's
conduct in the weeks following DiFalco's
disappearance. The Government highlighted four
types of allegedly suspicious conduct, all of which
White challenged.
i. The Interview with Nina DiFalco
First, Petitioner allegedly attempted to glean
information about the police investigation into

28a
DiFalco's disappearance. Shortly after DiFalco was
reported missing, Detective John Jacobsen set up a
meeting with DiFalco's wife, Nina DiFalco, at her
home. (Tr. 1615:22-1616:3 (Jacobsen testimony).)
Petitioner was at the DiFalco residence when
Detective Jacobsen arrived, and Petitioner sat
nearby, "looking in [their] direction," while the
detective spoke with Nina DiFalco. (Tr. 1617:5-18.)
Detective Jacobsen then questioned Petitioner, who
identified himself as the manager of the Giannini
restaurant. (Tr. 1617:19-1618:1.) In the Government's
summation, they argued that Petitioner lingered
during the interview with Nina DiFalco because he
"want[ ed] to know what the police [were] asking" and
"what
the
police
knew"
about
DiFalco's
disappearance. (Tr. 3535:10-12.)
White countered that Petitioner's presence was
easily explained by his long friendship with the
DiFalco family. (See Tr. 3631:20-3632:21 (White
summation) (summarizing testimony as to the
friendly relationship between Petitioner and Sammy
DiFalco).) In an effort to comfort Nina DiFalco,
Petitioner would call every day to see if she had any
family members with her, and he would bring food
over to the house. (Tr. 3668:1-10.)
ii. The "False Alibi" Theory
Second, the Government accused Petitioner of
attempting to "create a false alibi." (Tr. 3546:10-13
(Gov't summation).) Petitioner claimed in two
separate police interviews that he was present at the
Giannini restaurant on the night DiFalco
disappeared. (Tr. 1619:21-1620:1 (Det. Jacobsen
police report); Tr. 1941:17-21 (Det. Vonnittag police
report).) At trial, however, Giannini employee

29a
Giovanni Annunziati testified that he saw DiFalco at
the restaurant on the day in question, but that he did
not remember seeing Petitioner. (Tr. 1666:2-3,
1666:25-1667:1.)
White offered two responses. First, he noted that
Annunziati could simply be mistaken about who was
or was not at the restaurant on a particular day 14
years earlier. (Tr. 3670:22-3671:7.) White further
argued that, as a matter of common sense, Petitioner
would not have "lie[d] to a detective who can very
easily verify it or find out it's not true," especially "a
couple of days after the event when it was fresh in
everybody's mind." (Tr. 3671:8-16.)
iii. Petitioner's
Fiordolino

Remarks

to

Frank

Third, the Government emphasized the testimony
of cooperating witness Francesco "Frank" Fiordolino,
who described an interaction he had with Petitioner
on March 19, 1992, the day after DiFalco's body was
found. Fiordolino was walking on the street when
Petitioner called out from his car and asked
Fiordolino whether "any of the [Italian expletives]
passed by about that [Italian expletive]," which
Fiordolino understood as an inquiry about whether
the police had been asking around about DiFalco. (Tr.
1835:25-1838:19.) This conversation, the Government
argued, "contradicts" the defense's theory that
Petitioner "would never be involved in a []conspiracy
with the murder of DiFalco" because the two 1:11en
were close friends. (Tr. 3548:5-9 (Gov't summation).)
Petitioner "wouldn't refer to Sammy DiFalco, a man
who had been missing for weeks and just the night
before had been found stuffed in the back of a car, he

30a
wouldn't call that man a piece of shit unless he was
glad he was dead." (Tr. 3553:16-20.)
As with the other witnesses, White impeached
Fiordolino's credibility by enumerating his prior
criminal offenses. (See Tr. 3627:1-10 (White
summation).) More pointedly, White accused
Fiordolino of fabricating the conversation with
Petitioner in order to have something to "offer to the
[G]overnment in trying to get his own cooperation
agreement." (Tr. 3662:17-19; see generally Tr. 366064.) After highlighting comments from other
witnesses about the friendly relationship between
Petitioner and DiFalco, White argued that
Fiordolino's testimony was "an untruth" and "a
slander." (Tr. 3632:24.)
iv. Petitioner's Remarks
Cathy Ventimiglia

Regarding

Finally, the Government posited that Petitioner
attempted to divert suspicion away from himself and
toward a woman named Cathy Ventimiglia, with
whom DiFalco had been carrying on an extramarital
affair. (Tr. 3546:1-9 (Gov't summation).) Several
witnesses testified about conversations following
DiFalco's disappearance in which Petitioner
commented that DiFalco had plans to meet
Ventimiglia on the night he disappeared, or that
DiFalco might be missing because he'd run off
somewhere with her. (Tr. 1590:18-25 (Nina DiFalco);
Tr. 1667:11-25 (Annunziati); Tr. 1646:20-1647:13
(Michael D'Avanzio, a Giannini employee); Tr.
1941:21-1948:20 (Det. Vormittag).)
White characterized these conversations as
earnest inquiries by Petitioner, who was trying to
help Nina DiFalco by pursuing potential leads as to

31a
DiFalco's whereabouts.
summation).)

(Tr.

3667:10-22

(White

2. The Perrino Murder ·
Robert "Bobby" Perrino, a Bonanno associate, was
the superintendent of deliveries at the New York
Post. The New York State Police began investigating
Perrino's ties to organized crime in early 1992. By
Vitale's admission, Perrino was killed in May of that
year because Vitale and another Bonanno leader,
Anthony Spero, feared that Perrino might become a
Government cooperator. (Tr. 313:18-315:5 (Vitale
testimony).) Vitale and Spero asked Bonanno member
Frank Lino to take on much of the planning, but they
made
sure
that
the
conspiracy
was
compartmentalized, with each team isolated from the
others and information shared on a "need to know"
basis: Lino found a location for the murder, a club
owned by Petitioner's codefendant Basile; Michael
"Mickey Bats" Cardello was enlisted to transport
Perrino to the chosen location; there, Perrino was to
be murdered by a shooter selected by Vitale;
afterward, teams assembled by Lino were responsible
for cleaning up the murder scene and disposing ofthe
body. (Tr. 326:8-14 (Vitale testimony); Tr. 2171:8-12,
2180:22-24 (Lino testimony).) Lino was never told the
identity of the shooter, nor did he learn that Perrino
was the intended victim until late in the planning
process. (Tr. 2183:24-2184:12, 2291:12-2294:1 (Lino
testimony).)
The Government accused Petitioner of shooting
Perrino, relying on testimony from Vitale and Frank

32a
Ambrosino, another cooperating witness. 4 White
attempted to impeach both witnesses, calling
particular attention to possible ulterior motives for
falsely implicating Petitioner in the murder.
a. Government Witness Sal Vitale
Vitale testified that he and Petitioner met with a
Canadian Bonanno affiliate known as "George from
Canada" to discuss the possibility of using a Canadian
shooter for the Perrino murder. (Tr. 316:7-318:4.)
George cautioned, however, "that it was hard to get
men across the border from Canada" at that time. (Tr.
320:25-321:2.) George told Vitale that he'd already
asked Petitioner about performing the anticipated
murder, and Petitioner added, "You bring the guy,
and don't worry about it. I'll take care of it. I'll kill
'im." (Tr. 321:3-7.) The only people who knew that
Petitioner was the intended shooter were the three
participants at that meetingGeorge, Vitale, and
Petitioner himself-and, later, two other people that
Vitale told-Spero, with whom Vitale reached the
decision to order the murder (Tr. 321:21-322:12); and
Cardello, who was tasked with bringing Perrino to
Basile's club, where Petitioner would be waiting (Tr.
326:8-14). George from Canada died before
Petitioner's trial. Neither Spero nor Cardello was
called to testify.

The Government also elicited testimony from a number of
cooperating witnesses who participated in the Perrino murder
but did not know the identity of the shooter, and also presented
forensic evidence that corroborated these accounts of when,
where, and how Perrino was murdered and his body buried,
exhumed, relocated, and reburied. (See Gov't Opp'n at 12 (citing
to the record).)
4

33a
White focused on impeaching Vitale's credibility
and character, as discussed above in Section I.C.l.a.iii.
White also elicited testimony to support his theory
that Vitale himself killed Perrino and was now
implicating Petitioner only in order to "conceal his
own involvement." (Tr. 3715:7-8 (White surrnnation).)
White argued that Vitale had a personal interest in
silencing Perrino because both Vitale and his son
were directly involved in Perrino's criminal activities
at the New York Post. (Tr. 3704:23-3705:2, 3706:3-16,
3709:10-3715:8.) Vitale carefully "insulated the
identity of the shooter from everybody else," White
argued, and the only other people who knew about
Petitioner's alleged involvement were not called to
testify. (Tr. 3713:15-20.) White told the jury that they
could properly "infer from the government's failure to
call" a given witness that the witness "would not have
supported Sal Vitale's testimony." (Tr. 3707:3-7; see
also Tr. 3713:15-20.)
b. Government Witness Frank Ambrosino
Ambrosino testified that he was asked to help "get
rid of a body" by arriving at the murder location with
tokens for the Verrazano Bridge, thereby facilitating
a speedy journey across the Bridge for the body
disposal team as they traveled to the designated
burial site. (Tr. 2537:1-10.) On the night of the
murder, Ambrosino was waiting in a parked car with
the tokens, as instructed, when he saw Petitioner
"standing outside of Anthony Basile's club," near the
entrance. (Tr. 2540:5-13; see also Tr. 2538:232539:10.) Ambrosino knew that Petitioner wasn't part
ofLino's cleanup or disposal crews (Tr. 2543:18-19), so
Ambrosino ducked out of sight to protect his own
identity as a participant in the murder (Tr. 2540:19-

34a
20). When he sat back up again a few minutes later,
Petitioner was no longer there. (Tr. 2541:5-7.)
Shortly thereafter, Ambrosino observed members of
Lino's cleanup and disposal teams entering Basile's
club. (Tr. 2541:10-2542:2.) After another few minutes,
Lino's brother, Robert, came out of the club and
approached Ambrosino's car. (Tr. 2542:23-25, 2543:8-9.)
Ambrosino said that he'd seen Petitioner outside the
club, and Robert replied, "[L]et's just keep that between
you and me." (Tr. 2543:2-4.) An hour later, the disposal
team emerged from the club carrying Perrino's body,
which was concealed in a rolled-up rug, and drove the
body away in the waiting car. (Tr. 2544:24-2545:13.)
White challenged Ambrosino's testimony in three
ways. He frrst argued that Ambrosino's testimony was
"manufactured" in order to increase his bargaining
power as a Government cooperator, and that the jury
should therefore "reject his testimony out of hand." (Tr.
3693:4-5 (White summation).) White reviewed the
history of Ambrosino's proffers and concluded that
Ambrosino was a "glowing example of how somebody
can falsely implicate somebody in a murder by keeping
his ears open, reading what's out there, and going back
and giving the Government information based on what
he's already learned about the case." (Tr. 3694:7-11; see
generally Tr. 3686-94.) In the alternative, White
suggested the possibility of simple mistake, noting that
Ambrosino claims to have "look[ ed] out of his car for
just a fleeting moment and recognize[ d) Baldo Amato"
before "duck[ing] down in the car." (Tr. 3685:19-22.)
Finally, as with the other cooperating witnesses, White
emphasized Ambrosino's criminal activities, reminding
the jury that he had participated in two murders. (Tr.
3686:1-4.)

35a
D. The Verdict and Sentencing
On July 12, 2006, after a six-week trial, the jury
found all defendants guilty on all counts, including a
finding that the Government had proven Petitioner
guilty of all four predicate acts under the RICO count.
(Jury Verdict (Trial Dkt. 914).) On October 27, 2006,
the court sentenced Petitioner to life imprisonment,
lifetime supervision, and a $250,000 fine. (J. (Trial
Dkt. 941).)
E. Direct Appeal
Petitioner appealed his conviction with White's
continued assistance as appellate counsel. (Not. of
Appeal (Trial Dkt. 943).) The Second Circuit affirmed
the conviction on January 12, 2009, rejecting
Petitioner's challenges to (1) the court's instructions
regarding the anonymous and partially sequestered
jury; (2) an alleged Brady/ Giglio violation concerning
a sealed submission from the Government during the
trial; (3) the court's jury charge with respect to the
RICO statute of limitations; (4) the court's corrective
instruction regarding an inaccurate statement during
the Government's rebuttal summation; and (5)
"various [other] evidentiary rulings." United States v.
Amato, 306 F. App'x 630, 634-35 (2d Cir. 2009)
(summary order). 5

The Second Circuit's opinion is also available on the trial
docket. (See Mandate ofUSCA (Trial Dkt. 1061).) The Second
Circuit recalled and stayed this mandate during the pendency of
co-appellant LoCurto's request for rehearing, which was
ultimately denied. (See Order ofUSCA (Trial Dkt. 1063),
Mandate of USCA (Trial Dkt. 1067).)
5

36a
II. HABEAS PETITIONS UNDER 28 U.S.C. §
2255
A federal prisoner may file a petition in the
sentencing court "to vacate, set aside, or correct" a
conviction or sentence that was imposed "in violation
of the Constitution or laws of the United States." 28
U.S.C. § 2255(a). A federal habeas petitioner bears
the burden of proof by a preponderance of the
evidence. See Triana v. United States, 205 F.3d 36, 40
(2d Cir. 2000). This section reviews two procedural
bars that preclude certain federal habeas claims, as
well as the legal standard governing requests for
discovery and evidentiary hearings.
A. Procedural Bars
"Because collateral challenges are in 'tension with
society's strong interest in the finality of criminal
convictions, the courts have established rules that
make it more difficult for a defendant to upset a
conviction by collateral, as opposed to direct, attack.'"
Yick Man Mui v. United States, 614 F.3d 50, 53 (2d
Cir. 2010) (quoting Ciak v. United States, 59 F.3d 296,
301 (2d Cir. 1995), abrogated on other grounds by
Mickens v. Taylor, 535 U.S. 162 (2002)).
First, "the so-called mandate rule bars relitigation of issues already decided on direct appeal,"
including both "matters expressly decided by the
appellate court" and "issues impliedly resolved by the
appellate court's mandate." Id. (citations omitted); see
also id. at 53-54 (explaining that the mandate rule
applies in habeas proceedings under Section 2255).
Second, courts apply a "general rule that claims
not raised on dire~t appeal may not be raised on
collateral review unless the petitioner shows cause

37a
and prejudice." Massaro v. United States, 538 U.S.
500, 504 (2003) (emphasis added); see also Yick Man
Mui, 614 F.3d at 54. This bar does not apply to claims
of ineffective assistance of counsel, however. "[T]he
Supreme Court has explained that 'in most cases[,] a
motion brought under § 2255 is preferable to direct
appeal for deciding claims of ineffective assistance."'
United States v. Rosa, 666 F. App'x 42, 44 (2d Cir.
2016) (summary order) (quoting Massaro, 538 U.S. at
504).
B. Discovery and Evidentiary Hearings
"A habeas petitioner ... is not entitled to discovery
as a matter of ordinary course." Bracy v. Gramley,
520 U.S. 899, 904 (1997). "Rather, discovery is
allowed only if the district court, acting in its
discretion, finds 'good cause'" based on '"specific
allegations'" that give '"reason to believe that the
petitioner may, if the facts are fully developed, be able
to demonstrate that he is entitled to relief."' Ferranti
v. United States, 480 F. App'x 634, 638 (2d Cir. 2012)
(summary order) (alterations omitted) (quoting
Bracy, 520 U.S. at 908-09).
Courts are directed to hold evidentiary hearings in
proceedings under Section 2255 "[u]nless the motion
and the files and records of the case conclusively show
that the prisoner is entitled to no relief." 28 U.S.C. §
2255(b). "A [petitioner] seeking a hearing on an
ineffective assistance of counsel claim 'need establish
only that he has a plausible claim of ineffective
assistance of counsel, not that he will necessarily
succeed on the claim.'" Raysor v. United States, 647
F.3d 491,494 (2d Cir. 2011) (quoting Puglisi v. United
States, 586 F.3d 209, 213 (2d Cir. 2009)). This
determination is "analogous" to summary judgment

38a
proceedings: "If material facts are in dispute, a
hearing should usually be held, and relevant findings
of facts made." Id. (quoting Puglisi, 586 F.3d at 213).
This threshold is lower than the required showing for
a petitioner to merit discovery. Therefore, a petitioner
who fails to establish the need for an evidentiary
hearing will also not be entitled to any discovery.
III. THE INSTANT PETITION
Petitioner timely filed the instant Petition on
February 22, 2011, 6 asserting that he "has
maintained his absolute innocence ... at all times with
respect to all charges in this case." (Pet. Addendum
("Pet. Add'm") (Dkt. 1-1) at 1.) He asserts nine legal
claims (see Pet.), and also "requests an evidentiary
hearing ... and the opportunity to obtain the necessary
discovery in advance of such a hearing" (Pet'r Reply
Mem. (Dkt. 31) at 12). In the interest of analytic
efficiency, the court groups Petitioner's claims in the
following four categories:
• Ineffective assistance of counsel. Petitioner
presents two distinct legal arguments, one
based on White's alleged conflict of interest,
and another based on allegations of general
error. The court finds that both arguments lack
merit, and further, that Petitioner has failed to
Habeas petitions under Section 2255 are subject to a one-year
statute of limitations. 28 U.S.C. § 2255(f). In this case, the oneyear period runs from "the date on which the judgment of
conviction [became] final." Id. § 2255(f)(l). A conviction is
considered "final" when the Supreme Court "denies a petition for
a writ of certiorari." Clay v. United States, 537 U.S. 522, 527
(2003). Petitioner's certiorari petition was denied on February
22, 2010. Amato v. United States, 559 U.S. 962 (2010). The
Petition was therefore timely filed on February 22, 2011.
6

39a
meet the required showing to merit discovery
or an evidentiary hearing.
• Two additional claims asserted for the first
time on collateral review. Petitioner asserts
that that the Government unlawfully withheld
evidence and impermissibly relied on a "spy in
the camp." The court finds that Petitioner has
failed to show "cause and prejudice," and that
these claims are therefore procedurally barred
from habeas review. 7
• The same five claims rejected by the Second
Circuit on direct appeal. Petitioner argues that
he is entitled to raise these claims again on
habeas review as a result of White's alleged
ineffectiveness. The court fmds, however, that
the mandate rule precludes review of these
claims.
• A catch-all claim that Petitioner was denied his
constitutional rights "by the cumulative effect"
of these errors. The court fmds this claim to be
without merit.
The court notes that Petitioner's factual
recitations and legal analysis are scattered across 12
documents 8 that collectively total over 200 pages,
Petitioner's ineffective assistance claim, too, is asserted for the
first time on collateral review, but that claim is not procedurally
barred for the reasons discussed above in Section II.A.
8
In addition to the Petition itself (Dkt. 1), Petitioner has
submitted: a Petition Addendum (Pet. Add'm (Dkt. 1-1)); a
Declaration (Pet'r Decl. (Dkt. 8)); a Memorandum in Support
ofthe Petition (Pet'r Mem. (Dkt. 8-1)); a Reply to the
Government's Opposition (Pet'r Reply (Dkt. 29)); a
Memorandum in Support of the Reply (Pet'r Reply Mem. (Dkt.
31)); a Letter Regarding a Newly Discovered Transcript (Pet'r
7

40a
even before accounting for Petitioner's many exhibits.
These filings frequently fail to specify which factual
allegations correspond to which legal arguments,
indicate where analysis of one claim ends and
analysis of the next begins, or cite any supporting
authority for certain conclusions of law.
The court has carefully reviewed Petitioner's
numerous and voluminous filings and will discuss all
claims that could be readily discerned. To the extent
that Petitioner's filings could be read to raise
additional factual or legal claims, the court viewed
those claims either as frivolous because they are
clearly contradicted in the trial record, 9 or as not
July 4, 2013, Ltr. (Dkt. 33)); two Letters Bringing Recent
Relevant Authority to the Court's Attention (Feb. 19, 2015, Ltr.
reNew Auth. (Dkt. 36); Apr. 19, 2015, Ltr. reNew Auth. (Dkt.
37)); and a Reply to the Government's Response to Petitioner's
Supplemental Submissions (Pet'r Suppl. Reply (Dkt. 43)). When
the court issued a short order soliciting White's response to the
issues raised in the Petition, Petitioner filed a letter opposing
the order itself (Pet'r Mar. 24, 2017, Ltr. (Dkt. 45)) as well as an
eight-page response to White's two-page declaration (Pet'r Resp.
to White Decl. (Dkt. 47)).
9
These attacks typically take the form of Petitioner accusing
White of failing to pursue a particular strategy despite clear
evidence in the record that White did, in fact, pursue that
strategy. As one example, Petitioner points to Government
witness Tabbita's statement that he did not recall his prior
testimony regarding Petitioner's involvement in the DiFalco
murder. (Pet'r Reply at 8-13.) Petitioner argues that such
statements "should have been sufficient for Mr. White to
effectively make a case that all ofTabitta's testimony should
have been disregarded," and accuses White of"wholly fail[ing] to
hit this basic and fundamentally important point." (Id. at 12-13.)
The record shows, however, that White dedicated substantial
effort to the task of impeaching Tabbita's credibility, including
by highlighting specific flaws in his testimony. (See, e.g., Tr.
3636:5-6 ("[O]f all the witnesses in this trial, [Tabbita] is by far

41a
sufficiently developed to merit the court's
consideration. 10 In deciding to pass on those baseless
or untethered allegations, the court notes that
Petitioner is represented by counsel, and is therefore
not entitled to the solicitude accorded to pro se habeas
filings. Cf. Keeling v. Hars, 809 F.3d 43, 47 n.2 (2d
Cir. 2015) (noting the court's obligation to "construe
the submissions of a pro se litigant liberally and
interpret them to raise the strongest arguments that
they suggest." (internal quotation marks omitted)).
Moreover, Petitioner's counsel has repeatedly ignored
the court's individual rules on the appropriate
number and length of filings.

the most untrustworthy.''), 3635:11-13 ("[N]o jury could ever
convict anybody of any crime based on the testimony that you
heard and saw from that witness box" from Tabbita.); see
generally Tr. 3635-56.)
For example, Petitioner's Reply-his fifth substantive filing on
collateral review-introduces wholly new allegations regarding
plea negotiations. For the first time, Petitioner alleges that
White's advice regarding plea deals was constitutionally
ineffective for reasons unrelated to White's conflict of interest.
(See Pet'r Reply at 22-24; compare with Pet. Add'm at 13
(mentioning plea negotiations solely in the context of Petitioner's
conflict-based arguments).) Petitioner fails to connect these
novel allegations with any legal authority, except insofar as a
footnote in a separate document lists four cases that generally
address "ineffectiveness for failing to explain consequences in
the context of plea discussions." (Pet'r Reply Mem. at 12 n.9.) "It
is well settled[] that a court need not consider arguments
relegated to footnotes or raised for the first time in a reply brief."
F.T.C. v. Tax Club. Inc., 994 F. Supp. 2d 461, 471 n.1 (S.D.N.Y.
2014) (citing Tolbert v. Queens Coil., 242 F.3d 58, 75 (2d Cir.
2001), and other cases). The court declines to play a game of
"connect the dots" involving untimely factual allegations and
unelaborated string citations in separate documents.
10

42a
IV.INEFFECTIVE ASSISTANCE OF COUNSEL
Petitioner's primary claim for habeas relief is that
White was constitutionally ineffective "at all stages of
the trial and appeal." (Pet'r Mem. at 2.) Petitioner
asserts two legal theories: first, that White "operated
at all times under an actual conflict of interest ...
arising from his [prior] representation of Joseph
Massino"; and second, that White's representation
was ineffective "irrespective of the conflicts." (Pet'r
Mem. at 2.)
In an effo,t to expand the record, the court
requested a statement from White "addressing the
issues raised in the Petition." (Feb. 27, 2017, Order
(Dkt. 44) at 2.) White duly filed a declaration (the
"White Declaration") explaining that he retired in
2011 and "no longer [has] any files ... relating to
either" Massino's or Petitioner's case. (White Decl.
(Dkt. 46-1) ¶ 4.) White states that he has "no
recollection" of any information learned while
representing Massino, or of his strategy regarding
Massino as a potential witness in Petitioner's trial.
(Id. ¶¶ 5-7.) The court therefore relies on the trial
record and the allegations in the Petition, recognizing
that the court "need not assume the credibility of
[Petitioner's] factual assertions" if they "are
contradicted by the [trial] record." Broxmeyer v.
United States, 661 F. App'x 744, 750 (2d Cir. 2016)
(summary order) (emphasis added) (quoting Puglisi,
586 F.3d at 214).
After defining the applicable legal standards, the
court considers, first, the nature of White's conflict of
interest. The court fmds that Petitioner has failed to
establish that White's prior representation of Massino
created an actual conflict of interest, and therefore

43a
fmds that White operated under only a potential
conflict of interest. As a result, all of Petitioner's
allegations of ineffective assistance-both conflictrelated and otherwise-are governed by the standard
established in Strickland v. Washington, 466 U.S. 668
(1984). The court concludes that Plaintiff has failed to
establish a "plausible claim" of ineffective assistance
of counsel, and is therefore not entitled to an
evidentiary hearing nor to habeas relief.
A. LegalStandards
1. General Ineffectiveness
"To establish that counsel's performance was
constitutionally defective," a habeas petitioner must
generally satisfy the "performance and prejudice"
Strickland test: the petitioner bears the burden of
showing that (1) "the lawyer's performance fell below
an objective standard of reasonableness"; and (2)
"there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the
proceedings would have been different." Torres v.
Donnelly, 554 F.3d 322, 325 (2d Cir. 2009) (citations
and internal quotation marks omitted).
"In determining whether counsel's performance
was objectively deficient" under the first prong,
"courts 'must indulge a strong presumption that
counsel's conduct falls within the wide range of
reasonable professional assistance; that is, the
petitioner must overcome the presumption that,
under the circumstances, the challenged action might
be considered sound trial strategy."' Pizzuti v United
States, No. 02-CR-1237 (LAP) (HBP), 2014 WL
4636521, at *15 (S.D.N.Y. Sept. 16, 2014) (quoting
Strickland, 466 U.S. at 689). The Supreme Court has
emphasized, however, that both prongs must be

44a
satisfied: "even if counsel's performance is found [to
be] professionally unreasonable, 'any deficiencies ...
must be prejudicial to the defense in order to
constitute
ineffective
assistance
under
the
Constitution."' Torres, 554 F .3d at 325 (emphasis
added) (quoting Strickland, 466 U.S. at 692). "When a
defendant challenges a conviction," a defendant must
establish "a reasonable probability that, absent the
errors, the factfmder would have had a reasonable
doubt respecting guilt." Strickland, 466 U.S. at 695.
2. Conflicts of Interest
"It is well-established that 'a defendant's Sixth
Amendment right to effective assistance of counsel
includes the right to representation by conflict-free
counsel."' United States v. Cohan, 798 F.3d 84, 88 (2d
Cir. 2015) (quoting LoCascio v. United States, 395
F.3d 51, 56 (2d Cir. 2005)). The court has an
obligation to protect that right by "initiat[ing] an
inquiry whenever it is sufficiently apprised of even
the possibility of a conflict of interest," and, if
necessary, holding a Curcio hearing for the pwpose of
"disqualify[ing] counsel or seek[ing] a [conflict]
waiver from the defendant." Id. (quoting United
States v. Rogers, 209 F.3d 139, 143 (2d Cir. 2000)).
This inquiry is often called the "Sullivan inquiry" in
reference to the Supreme Court's directive in Cuyler
v. Sullivan that a trial court should investigate when
it "knows or reasonably should know that a particular
conflict exists." 446 U.S. 335, 347 (1980).
There is no dispute in this case that the court did
not conduct a full Sullivan inquiry for Petitioner. This
oversight was regrettable, as a Sullivan inquiry is the
best means of protecting a defendant's right to
conflict-free counsel. The Supreme Court has

45a
clarified, however, that automatic reversal is not
warranted in cases such as this one. See Mickens v.
Taylor, 535 U.S. 162 (2002). Rather, the court will
only find that Petitioner "has suffered ineffective
assistance of counsel in violation of the Sixth
Amendment if his attorney" had (1) "an actual conflict
of interest that adversely affected the attorney's
performance," or (2) "a potential conflict of interest
that resulted in prejudice." Cohan, 798 F.3d at 88
(quoting United States v. Levy, 25 F.3d 146, 152 (2d
Cir. 1994)).
a. Automatic Reversal Is Not Warranted
Generally, a trial court's failure to inquire into a
potential conflict of interest on the part of defense
counsel does not automatically require reversal of the
conviction, even if the trial court knew or should have
known about the potential conflict. Mickens, 535 U.S.
at 172-73. The Mickens Court reasoned that a "trial
court's awareness of a potential conflict neither
renders it more likely that counsel's performance was
significantly affected nor in any other way renders the
verdict unreliable." Id. at 173. Automatic reversal
applies only in certain limited circumstances,
including the scenario contemplated in Holloway v.
Arkansas: 11

In addition to the Holloway scenario, automatic reversal is
required if trial counsel has a per se conflict of interest because
''trial counsel is not authorized to practice law, or is implicated
in the very crime for which his or her client is on trial." Martinez
v. Kirkpatrick, 486 F. App'x 158, 160 (2d Cir. 2012) (summary
order) (quoting Annienti v. United States, 234 F.3d 820, 823 (2d
Cir. 2000)). Petitioner has not alleged a per se conflict in this
instance.
11

46a
In [Holloway], defense counsel had objected
that he could not adequately represent the
divergent interests of three codefendants.
Without inquiry, the trial court had denied
counsel's motions for the appointment of
separate counsel and had refused to allow
counsel to cross-examine any of the defendants
on behalf of the other two. The Holloway Court
deferred to the judgment of counsel regarding
the existence of a disabling conflict . . . .
Id. at 167 (internal quotation marks omitted)
(describing Holloway v. Arkansas, 435 U.S. 475, 47880, 485-86 (1978)).
Petitioner "asserts that automatic reversal is
required here" because White "did, in fact, object,"
and "the Court failed to conduct the required inquiry."
(Pet'r Suppl. Reply at 6.) Petitioner is incorrect.
Whereas the defense counsel in Holloway "protested
his inability" to simultaneously represent three
codefendants, Mickens, 535 U.S. at 173, White argued
that "any potential conflict of interest" on his part was
"clearly waivable," and that "Amato [was] prepared to
make any appropriate waivers at a 'Curcio hearing"'
(2d White Ltr. at 1-2). Automatic reversal is therefore
not appropriate in this instance. See Mickens, 535
U.S. at 173 ("[A] defense attorney is in the best
position to determine when a conflict exists," and "his
declarations to the court are 'virtually made under
oath.'" (quoting Holloway, 435 U.S. at 485-86)).
Instead, the court must assess White's actual
performance at trial. The appropriate legal standard
for that assessment depends on the nature of White's
conflict of interest, as discussed in the following
sections. See id. at 173-74.

47a
b. Actual Conflicts of Interest
If a petitioner's "defense counsel was 'burdened by
an actual conflict of interest,"' the petitioner is
entitled to "a 'limited presumption of prejudice.'"
Torres, 554 F.3d at 325 (quoting Strickland, 466 U.S.
at 692)). The presumption only attaches, however, "if
the defendant demonstrates that counsel actively
represented conflicting interests" and that the conflict
"adversely affected his lawyer's performance." Id.
(quoting Strickland, 466 U.S. at 692).
An "actual conflict of interest" means "a conflict
that affected counsel's performance-as opposed to a
mere theoretical division ofloyalties." Mickens, 535
U.S. at 171 (emphasis in original) (internal quotation
marks omitted). "An actual conflict 'adversely affects
counsel's performance' if 'some plausible alternative
defense strategy or tactic might have been pursued,
and the alternative defense was inherently in conflict
with or not undertaken due to the attorney's other
loyalties or interests."' Curshen v. United States, 596
F. App'x 14, 16 (2d Cir. 2015) (summary order)
(alterations omitted) (quoting Schwarz, 283 F.3d at
92); see also Martinez v. Kirkpatrick, 486 F. App'x
158, 160 (2d Cir. 2012) (summary order) ("Actual
conflicts of interest occur when the interests of the
defendant and his counsel 'diverge with respect to a
material factual or legal issue or to a course of
action.'" (quoting Schwarz, 283 F.3d at 91)).
This standard is less demanding than the
Strickland test because the petitioner need not show
actual prejudice. For the purpose of the "adverse
effect" analysis, a "plausible defense strategy is a
strategy that could have been pursued even if, in all
likelihood, it would have failed." Curshen, 596 F.

48a
App'x at 16 (citing Schwarz, 283 F.3d at 92.) The
petitioner retains the burden of showing "causation,"
however. LoCascio, 395 F.3d at 56. "In other words, he
must show that 'trial counsel chose not to undertake [the
alternative strategy] because of his conflict."'12 Id. at 5657 (alteration in original) (emphasis added) (quoting
Winkler v. Keane, 7 F.3d 304, 309 (2d Cir. 1993)).
c. Potential Conflicts of Interest
If Petitioner fails to establish that defense counsel's
performance was adversely affected by an actual conflict
of interest, then the court will find that White's
relationships created only a potential conflict of interest.
Martinez, 486 F. App'x at 160 ("[P]otential conflicts of
interest arise if 'the interests of the defendant may place
the attorney under inconsistent duties at some time in
the future."' (quoting United States v. Kliti, 156 F.3d
150, 153 n. 3 (2d Cir. 1998))). Unlike actual conflicts,
potential conflicts impart no presumption of prejudice:
to succeed on an ineffectiveness claim based on a
potential conflict, Petitioner bears the burden of
satisfying Strickland's "performance and prejudice" test.
See Tueros v. Greiner, 343 F.3d 587, 592 (2d Cir. 2003);
Pepe v. Walsh, 542 F. App'x 54, 56 (2d Cir. 2013)
(summary order).

The court cautions that a petitioner need not necessarily
establish the attorney's subjective state of mind. See Tueros v.
Greiner, 343 F.3d 587 (2d Cir. 2003) (holding that actual
conflicts of interest should be defined based on objective duties
rather than an attorney's subjective beliefs). Rather, the
petitioner may establish constructive causation by showing that
an alternative strategy was "inherently in conflict with ... the
attorney's other loyalties or interests."' Curshen, 596 F. App'x at
16 (alterations and citation omitted) (emphasis added).
12

49a
B. The Nature of White's Conflict of Interest
Petitioner contends that White "operated at all
times under an actual conflict of interest." (Pet'r
Mem. at 2.) Petitioner therefore bears the burden of
showing adverse effect by (1) identifying a "plausible
alternative defense strategy or tactic [that] might
have been pursued," and (2) showing that "the
alternative defense was inherently in conflict with or
not undertaken due to [White's] other loyalties or
interests.'" Curshen, 596 F. App'x at 16 (citation and
internal quotation marks omitted).
Petitioner argues that White's conflict adversely
affected his ability to "fully and appropriately
counsel" Petitioner with regard to plea negotiations,
as well as "when it came time to decide whether to call
Massino as a witness on the key issues in the case,"
or "whether to stipulate to the exclusion" of the 302
Notes. (Pet Add'm at 5 n.2, 13.) The court assumes,
without deciding, that Petitioner has sufficiently
alleged "plausible alternative strategies." 13
The court notes that Petitioner has offered scant allegations
regarding plea negotiations. Petitioner has alleged only that
"White was unable to fully and appropriately counsel Mr. Amato
on the advisability or even the possibilities of entering into pleas
negotiations in the case, other than conveying to him an offer of
a term of years made to him by the government." (Pet. Add'm at
13.) Petitioner does not allege with any specificity what White
could or should have done differently. (See Pet'r Reply at 22-24.)
But see note 10, supra (noting that Petitioner's Reply introduces
wholly new allegations of non-conflict-related ineffectiveness
concerning plea negotiations, and explaining why the court
declines to consider those allegations). "Although a [petitioner]
need not show that the negotiation of a plea bargain would have
been successful, the strategy must nevertheless 'possessD
sufficient substance to be a viable alternative."' Eisemann, 401
F.3d at 107 (quoting United States v. Fevrer, 333 F.3d 110, 116
13

50a
In order to determine whether any of these
strategies were "inherently in conflict" with White's
duties to Massino, the court must first determine
what those duties were. After identifying White's
ethical obligations to his former client, the court
considers whether any of those obligations were at
cross-purposes with Petitioner's proposed strategies.
Finding no inherent conflict, the court concludes that
Petitioner has failed to plausibly establish adverse
effect,
and
therefore,
that
White's
prior
representation ofMassino created only a potential
conflict of interest. Mickens, 535 U.S. at 171.
1. A Lawver's Ethical Obligations to a Former
Client
Courts have recognized "the high probability of
prejudice
arising
from
multiple concurrent
representation," but neither the Supreme Court nor
the Second Circuit has assessed whether "cases of
successive representation" generally produce actual
conflicts of interest. Mickens, 535 U.S. at 175-76
(emphasis added) (noting that "the Federal Rules of
Criminal Procedure treat concurrent representation
and prior representation differently"); see also
Eisemann v. Herbert, 401 F.3d 102, 108 (2d Cir. 2005)
(declining to reach the issue); Pepe, 542 F. App'x at 55
(same). "The question of whether an actual conflict
existed in the context of [White's] successive
representation" therefore "requires the Court to
determine ... whether Petitioner's interests were, in
fact, materially adverse to those of [the former
(2d Cir. 2003)). The court need not address this issue, however,
because the court resolves Petitioner's allegations of actual
conflict on other grounds.

51a
client]." 14 Medrano v. United States, No. 06-CR-61
(LTS), 2015 WL 4522857, at *5 (S.D.N.Y. July 27,
2015) (citing United States v. Fevrer, 333 F.3d 110,
116 (2d Cir. 2003)).
Petitioner contends that "White was duty[-]bound
to avoid doing anything that would undermine his
former client's best interests." (Pet. Add'm at 8; see
also, e.g., Pet'r Suppl. Reply at 13 ("White could not
ethically be in a position of causing negative
consequences for his [former] client Massino.").)
Petitioner cites no authority in support this expansive
conception of a lawyer's duty former clients. The New
York Rules of Professional Conduct define a more
modest set of specific obligations: "A lawyer who has
formerly represented a client in a matter shall not,"
without the consent of the former client: (1) "reveal
[the former client's] confidential information, or use
such information to the disadvantage of the former
client, except as these Rules would permit or require
with respect to a current client or when the
information has become generally known"; or (2)
represent a new client in a "substantially related
matter" if the new client's "interests are materially
adverse to the interests of the former client." N.Y.
Rules Profl Conduct r. 1.9(a), (c); see also E.D.N.Y.
Local Civ. Rule 1.5(b)(5) (authorizing the court to
discipline an attorney if, "[i]n connection with
activities in [the Eastern District ofNew York], [the]
Petitioner correctly contends that the court should not defer to
White's legal conclusion that the conflict was waivable, or to his
factual representation that Petitioner was prepared to make any
appropriate conflict waivers. (See Pet'r Reply Mem. at 8 n.6
(citing Wood v. Georgia, 450 U.S. 261, 265 n.5 (1981); Levy, 25
F.3d at 158; United States v. Iorizzo, 786 F.2d 52, 59 (2d Cir.
1986))); see also 1st White Ltr.; 2d White Ltr.)
14

52a
attorney is found to have engaged in conduct violative
of the New York State Rules of Professional
Conduct").
"[T]he Supreme Court has repeatedly held that
'breach of an ethical standard does not necessarily
make out a denial of the Sixth Amendment guarantee
of assistance of com1sel.'" Bethea v. Walsh, No. 09CV-5037 (NGG), 2016 WL 258639, at *30 n.l7
(E.D.N.Y. Jan. 19, 2016) (quoting Mickens, 535 U.S.
at 176, and collecting cases). In order for Petitioner to
establish an actual conflict of interest, however, he
must show, at a minimum, that White's
ethical.obligations to Massino caused a material
divergence of interest with Petitioner's defense.
Martinez, 486 F. App'x at 160 (citation omitted).
Therefore, the court will consider whether any of
Petitioner's proposed alternative strategies would
have subjected White to conflicting duties because (1)
White risked revealing Massino's confidential
information or using it in a manner that would have
disadvantaged Massino; or (2) Petitioner's trial was
"substantially related" to Massino' s trial, and
Petitioner's interests were materially adverse to
Massino' s.
2. Adverse Effect
a. Confidential Information
Petitioner accurately states that White had
"continuing duties to maintain" his "former client's ...
confidences[] and secrets." (Pet. Add'm at 6.)
Petitioner has not, however, alleged any specific
confidential information that White learned from
Massino that was, or could have been, used to advance
Petitioner's defense. That being said, the court
recognizes the tension in expecting Petitioner to

53a
ascertain, without discovery, whether White actually
learned any relevant secrets from Massino, especially
if those secrets never surfaced at trial. After
considering the record, however, the court finds no
basis for concluding that White learned any pertinent
confidential
information
while
representing
15
Massino. White's continuing duty of confidentiality,
therefore, does not provide a basis for finding an
actual conflict of interest.
When White first notified the court of his conflict,
he stated that he could "recall no material
information or confidences and secrets conferred upon
[him] by Massino" during their brief relationship. (1st
White Ltr. at 3.) As a result, White did not think it
necessary to seek a waiver of attorney-client privilege.
(Jan. 2006 Status Conf. Tr. 39:10-13.) Although he
initially intended to secure co-counsel as a
precautionary measure, he was comfortable with the
possibility of cross-examining Massino himself, if
necessary, and indeed, he attempted to call Massino
as a witness regarding Vitale's testimony. 16 See supra
Sections I.B, I.C.l.a.ii.
White's declaration states that he "[has] no recollection of the
particular content" of his meetings with Massino. (White Decl. ¶
5.) He is therefore "unable to identify information obtained from
Mr. Massino that could have been used in support of Mr. Amato's
defense," or to surmise as to "how any information imparted to
[him] by Mr. Massino could have impacted on plea negotiations
on behalf of Mr. Amato." (Id. ¶ 6.) Absent any allegations from
Petitioner that White possessed specific confidential
information, the court deduces what it can from the trial record.
15

To the extent that White possessed confidential information
that was not material to Petitioner's trial, he represented to the
court that he "would not seek to cross-examine Massino based on
any privileged communications, unless [Massino] waived the

16

54a
The Supreme Court has "recognize[ed] that a
defense attorney is in the best position to determine
when a conflict exists, that he has an ethical
obligation to advise the court of any problem, and that
his declarations to the court are virtually made under
oath." Mickens, 535 U.S. at 167-68 (citations and
internal quotation marks omitted). The Second
Circuit has cautioned, however, that the existence of
an actual conflict should not be "determined only by
the attorney's [subjective] belief." Tueros, 343 F.3d at
597 (emphasis added). A purely subjective standard
would "create more injustice than it would remedy"
because any attorney "who [was] blinded to his or her
own conflict" would never be held to "violate his
client's constitutional rights." Id.
The court once again turns to the New York Rules
ofProfessional Conduct, which provide a standard for
assessing White's representations: courts may reach
a "conclusion about [a lawyer's] possession of
[confidential] information" from a prior client "based
on the nature of the services the lawyer provided the
former client[,] and information that would in
ordinary practice be learned by a lawyer providing
such services." N.Y. Rules Profl Conduct r. 1.9 cmt. 3.
Under that analysis, the court fmds White's
statement-that he learned "no material information

privilege." (2d White Ltr. at 1-2.) See also Eisemann, 401 F.3d at
109 (considering the argument that a lawyer faced an actual
conflict in calling his prior client as a witness based on the "risk
[of] revealing confidences," but rejecting that argument because
"any such problem could have been avoided by a careful direct
examination," and because the prior client might have waived
privilege if asked to do so).

55a
or confidences"-to be consistent with the nature of his
work for Massino.
White's representation was brief in duration and
limited in scope. For eight months, he was one of
multiple lawyers from different firms supporting
Massino' s primary defense counsel. His duties
"consisted of making requests for discovery, making
an application to facilitate meetings [at the detention
center where Massino was being held], making a
motion to consolidate the two indictments that were
filed against Massino, and responding to the
Government's application seeking to disqualify" the
"'learned counsel' [selected by] Massino on a deatheligible indictment." (1st White Ltr. at 3.) The court
notes, in addition, that Massino was not charged with
any activities in connection with the DiFalco or
Perrino murders. (See Superseding Indictment (Dkt.
535), Massino I; Indictment (Dkt. 1), Massino II.) 17 It
seems unlikely that his defense team would have
conducted inquiries or sought discovery concerning
those murders.
In sum, White's activities on behalf of Massino was
both limited in scope and peripheral to the
substantive work on Massino's defense. Legal
representation of this nature, which terminated
before the commencement of pre-trial motion
practice, would not be expected to involve discussions
of specific factual allegations pertaining to crimes for
which the defendant was not charged. There is thus
no reason to suspect that White possessed any
pertinent confidential information, much "tess that
Each ofMassino's cases involved multiple superseding
indictments. The court cites here to the indictments that were
operative during the period of White's representation.
17

56a
he was confronted with an opportunity to use any
such information to Mas sino's disadvantage. The
court fmds no evidence of actual conflict based on
White's duty of confidentiality to Massino. Cf. United
States v. Blount, 291 F.3d 201, 212 (2d Cir. 2002)
(fmding only a potential conflict where a cooperating
witness had previously been represented by defense
counsel's firm, and noting that the defendant "has not
suggested that [defense counsel] had any information
from, or with respect to, [the cooperating witness]
that could have been used" for the defense).
b. Materially Adverse Interests
Whether or not White possessed any relevant
confidential information, he could have run afoul of
his ethical duties to Massino if (1) Petitioner's trial
was "substantially related" to White's prior
representation ofMassino, and (2) Petitioner's
interests were "materially adverse" to Massino's. See
N.Y. Rules Profl Conduct r. 1.9(a). Petitioner's
briefing does not explicitly address the first prong, but
appears to assert three ways in which Petitioner's
proposed alternative strategies pitted Massino's
interests against his own: Petitioner argues that
White risked compromising Massino's position as a
Government cooperator, causing Massino to commit
perjury, and inciting Massino to incriminate
himself. 18 The court finds all three bases
Petitioner asserts at least two of these three reasons with
respect to each of his proposed alternative strategies. (See Pet.
Add'm at 13-14 ("White was unable to fully and appropriately
counsel" Petitioner regarding plea negotiations because "White
never could have risked having Mr. Amato, in the course of plea
discussions, ... show the government that Massino was not
credible because of crimes he had committed that he never
admitted to ... [,]things which would have inured to Massino's
18

57a
unpersuasive. Thus, the court need not decide
whether Massino' s trial and Petitioner's trial were
"substantially related." Because Petitioner has not
shown a material divergence of interest with respect
to any alternative strategies, he has failed to
plausibly establish an actual conflict.
i. Compromising Massino's Position as
a Cooperator
Petitioner argues that zealous advocacy on his
behalf could have harmed Massino's interests as a
cooperating witness. If White had "use[d] Massino to
bolster [Petitioner's] case and hurt the government's
case," Massino "would risk running afoul of his
handlers." (Pet. Add'm at 8; see also id. at 9 ("To put
[Massino] up on the stand at all ... clearly would have
undercut whatever interest it is the government has
had in keeping Massino off of the stand."); id. at 13-14
(making similar allegations regarding plea
negotiations).) This argument mischaracterizes the
nature of cooperation agreements. The Govenunent
clarified that, "as in all cooperation agreements,
Massino was obligated only to testify truthfully
without regard to the outcome of any given case.
Accordingly, even ifMassino would testify favorably to
a given defendant, such testimony would not
detriment in his relationship with the government."); id. at 11
("White could not fully and fairly evaluate ... whether and how
to use the [302 Notes] in his cross-examination of Vitale ... [,] nor
could he fairly or effectively evaluate the advisability of calling
Massino as a witness, forcing him to risk angering the
government by disputing their 'proof on [the] thinly built"
DiFalco murder case, or the risk of.causing Massino to "commit[]
petjury by falsely disavowing the [302 Notes]."); id. at 9
("Subjecting Massino to cross-examination [] risked the exposure
of other crimes to which Massino had never admitted.").)

58a
jeopardize his agreement." (Gov't Opp'n at 30.)
Indeed, though the Government decided not to call
Massino as a witness, they acknowledged before trial
that "the defense [was], of course, free to call
him." 1919 (May 22, 2006, Gov't Mot. in Lim. at 6.)
The court notes, moreover, that White's
representation ofMassino terminated in the early pretrial phase, long before Massino initiated discussions
regarding cooperation. Petitioner's scenario is
therefore quite unlike cases in which courts found
actual conflicts based on concurrent representation of
a defendant and a cooperator, see United States v.
Daugerdas, 735 F. Supp. 2d 113, 116 (S.D.N.Y. 2010);
United States v. Rodriguez, No. 99-CR-166 (NO),
1999 WL 314162, at *2-3 (E.D.N.Y. May 18, 1999), or
successive representation in which the lawyer
facilitated the prior client's cooperation against the
current client, see United States v. Dipietro, No. 02CR-1237 (SWK), 2004 WL 613073, at *3-4 (S.D.N.Y.
Mar. 29, 2004), affd sub nom. United States v. Genua,
274 F. App'x 53 (2d Cir. 2008) (summary order).
ii. Causing Massino to Commit Perjury
Petitioner next argues that Massino's interests
were adverse to Petitioner's based on the risk that
Massino might "falsely den[y]" an earlier statement,
thereby subjecting himself"to a perjury charge." (Pet.
Add'm at 8-9.) Petitioner focuses entirely on
Massino's statements in 302 Notes, however, which
consist of handwritten marginalia on a document
The Government opposed White's motion to call Massino for a
limited evidentiary hearing regarding the basis of his knowledge
of the DiFalco murder, as discussed above in Section I.C.l.a.ii.
That opposition, however, was distinct from the issue
ofMassino's general availability as a witness for the defense.
19

59a
reviewed during his own trial preparation, which
Massino later turned over to the Government after
becoming a cooperator. Petitioner has not identified
any relevant statements made under penalty of
perjury. Any risk that White may have prompted
perjury on Massino's part is thus purely speculative
"and fails for lack of any support in the evidence."
Eisemann, 401 F.3d at 109.
In any event, Petitioner himself points out the
overarching flaw in this argument by acknowledging
that White "had an obligation to expose Massino as a
liar if Massino did not tell the truth" on the stand.
(Pet. Suppl. Reply at 13.) The Second Circuit has
explicitly clarified "that the tension between [the]
parallel duties of(1) zealous representation and (2)
candor to the court ... [does] not create [an actual]
conflict of interest." Torres, 554 F.3d at 326.
"[D]efense counsel's ethical obligation to correct[]
testimony he [knows] to be inaccurate"-irrespective of
whether that testimony comes from an adverse
witness or his own client, or whether the correction
benefits the defense or the prosecution-merely reflects
the "ethical guidelines applicable to every attorney
appearing as trial counsel." Id. If there is no actual
conflict when an attorney actually corrects perjured
testimony on the stand, then Petitioner cannot
plausibly argue that an actual conflict existed based
on the risk that White might have had to correct
perjured testimony, had Massino actually taken the
stand and committed perjury.
iii. Exposing Other Crimes
Finally, Petitioner argues that "subjecting
Massino to cross-examination[] risked the exposure of
other crimes to which Massino had never admitted,"

60a
possibly including criminal "conduct following his ...
decision to 'cooperate.'" (Pet. Add'm at 9; see also id.
at 13-14 (making similar allegations regarding plea
negotiations).) This argument founders on two
grounds. First, Petitioner has not alleged that either
he or White actually knew of such crimes and was
willing to expose them in court or during plea
negotiations. This theory, like the perjury theory,
"rests on speculation ... , and fails for lack of any
support in the evidence. " 20 Eisemann, 401 F .3d at
109. Second, even if Petitioner had presented specific
allegations, Massino "would have had the protection
of the privilege against self-incrimination, and
nothing in the record suggests that he was willing to
waive his privilege." Id.
c. Summary: No Adverse Effect
The court fmds that Petitioner has failed to
plausibly establish that White operated under an
actual conflict of interest. Petitioner asserts in the
strongest terms that White should have acted
differently, but fails to establish that any of his
The court notes that Massino had already been found guilty
on illegal gambling charges that substantially resembled
Petitioner's charges, so there was no risk of novel exposure on
those activities. (Compare Superseding Indictment (Dkt. 665) &
Jury Verdict (Dkt. 806), Massino I, with Pet'r Superseding
Indictment (Trial Dkt. 4).) In addition, Petitioner does not allege
that Massino was involved in the DiFalco or Perrino murders.
Therefore, any additional criminal activity could only have come
to light through general efforts to impeach Massino, a task for
which ample ammunition already existed in the public record
ofhis convictions and guilty pleas. Petitioner references the
possible existence of"money [that] Massino had out on the street
and was collecting" (Pet. Add'm at 13-14), but the court declines
to give weight to vague speculation of that nature.
20

61a
suggested alternative strategies were "inherently in
conflict" with any of White's duties to Massino as a
former client. Curshen, 596 F. App'x at 16 (citation
and internal quotation marks omitted). Petitioner has
therefore failed to establish adverse effect because he
has not shown the requisite "causation." LoCascio,
395 F.3d at 56; see also Mickens, 535 U.S. at 171 (An
"actual conflict of interest" means "a conflict that
affected counsel's performance-as opposed to a mere
theoretical division of loyalties." (internal quotation
marks omitted)); Guadmuz v. LaValley, No. 10-CV4408 (ARR), 2012 WL 1339517, at *7 (E.D.N.Y. Apr.
17, 2012) ("Petitioner's speculation that [counsel]
changed his planned trial strategy because of an
alleged allegiance to [a former client] is based on
nothing more than speculation, and petitioner has
failed to prove that counsel's non-pursuit of the
alterative defense strategy was 'forgone as a
consequence of[counsel's] alleged conflict of interest."'
(alterations omitted) (emphasis added) (quoting
Eisemann, 401 F.3d at 108)).
Moreover, Petitioner ignores certain actions that
White did, in fact, take with regard to Massino and
the 302 Notes. Although White did not call Massino
as a defense witness, White did seek to call him for a
limited evidentiary hearing on the precise subject of
Mas sino's comments to Vitale regarding Petitioner's
role in the DiFalco murder. See supra Section
I.C.l.a.ii. Although White did not introduce the 302
Notes at trial, he did notify the court that he might
seek to introduce them if Massino were called to
testify, or if Massino's statements to Vitale were
admitted as co-conspirator statements. See supra
Section I.C.l.a.i. White's actions suggest that he did
not view these tactics as ethically foreclosed, even if

62a
the tactics were ultimately blocked by court rulings or
abandoned for strategic reasons.
Petitioner may disagree about whether White's
decisions were wise, but any such discussion speaks
to the Strickland test for ineffectiveness, as discussed
below. For the purpose of establishing an actual
conflict of interest, the merits of an alternative
strategy are relevant only insofar as the strategy
must be "plausible." Because the court assumed
plausibility in this instance, Petitioner's burden was
to show that a path not taken was inherently in
conflict with White's duties to Massino. This
Petitioner has failed to do. He has not identified any
plausible strategies that were precluded by White's
legitimate ethical obligations to his former client.
3. Conclusion: White Operated
Potential Conflict of Interest

Under

a

Because Petitioner has not shown a material
divergence of interest between White's duties to
Massino and to Petitioner, the court fmds that
White's prior representation of Massino created a
potential-rather than an actual--conflict of interest at
Petitioner's trial. As a result, the Strickland test
governs all of Petitioner's claims of ineffective
assistance of counsel, whether related to White's
potential conflict or not. Tueros, 343 F.3d at 592;
Pepe, 542 F. App'x at 56. Therefore, in the interest of
clarity, the court will analyze Petitioner's conflictand non-conflictbased claims together, grouped by the
relevant criminal charge or phase of the trial.

63a
C. Allegations Pertaining to the DiFalco
Murder
Petitioner appears to challenge four distinct areas
of White's defense strategy with regard to the DiFalco
murder charge. Petitioner argues that White should
have: (1) called Massino as a witness to discuss the
302-Notes; (2) further investigated Bonanno associate
Fabio Bartolotta's possible motive for killing DiFalco;
(3) adduced additional evidence regarding Petitioner's
financial relationship with the Giannini restaurant;
and (4) more vigorously challenged the Government's
allegations that Petitioner acted suspiciously
following DiFalco's disappearance. For each set of
allegations, the court fmds that Petitioner has failed
to make a plausible showing with regard to one or
both prongs of Strickland's "performance and
prejudice" test.
1. Massino as a Potential Witness
Petitioner argues that the 302 Notes were a
"vitally important document" that "directly undercut
Vitale's claim on the central issue of the case," and
that there "is no reasonable strategy-related.reason"
why the 302 Notes were not "used by the defense."
(Pet. Add'm at 11.) "Massino was fully available as a
witness to be examined about [the 302 Notes]," and
Petitioner contends that, had he been called to testify,
"he would have put the lie to Vitale's testimony
implicating" Petitioner in the DiFalco murder. 21 (Id.;
Petitioner does not appear to argue that White committed
independent error by not seeking to use the 302 Notes even
without calling Massino as a witness. His arguments all appear
to rest on the premise that Massino could and should have been
called to testify. (See. e.g., Pet. Add'm at 11 (arguing that White
should "have been used by the defense" and noting that "Massino
21

64a
Pet'r Reply Mem. at 10.) This argument fails under
the first Strickland prong because Petitioner has
failed to show that White's performance was
objectively deficient. 22
As a preliminary matter, the Second Circuit has
consistently held that an attorney's "decision
'whether to call specific witnesses-even ones that
might offer exculpatory evidence-is ordinarily not
viewed as a lapse in professional representation."'
Pierre v. Ercole, 560 F. App'x 81, 82 (2d Cir. 2014)
(summary order) (quoting United States v. Best, 219
F.3d 192, 201 (2d Cir. 2000)); see also Greiner v.
Wells, 417 F.3d 305, 323 (2d Cir. 2005) ("The decision
not to call a particular witness is typically a question
of trial strategy that reviewing courts are ill-suited to
second-guess." (alteration omitted) (quoting United
States v. Luciano, 158 F.3d 655, 660 (2d Cir. 1998)
(per curiam))).
"[D]eference is particularly apt where, as here, an
attorney decides not to call an unfriendly witness to
the stand and has precious little means of
determining how the witness might testify." Greiner,
was fully available as a witness to be examined about" the 302
Notes).)
In addition to the arguments discussed in the text, Petitioner
asserts that White should have "argue[d] further and more
effectively against allowing Vitale to testify at all, given the [302
Notes] directly contradicting [his testimony] and Massino's
availability." (Pet. Add'm at II.) Without further detail as to
specific strategies that White should have pursued or further
explanation as to any errors that White allegedly made, the
court fmds this claim insufficiently developed to merit the court's
consideration. See supra Section I.C.1.a (discussing White's
efforts to preclude or impeach Vitale's testimony); cf. Triana, 205
F.3d at 40 (habeas petitioners bear the burden of proof).
22

65a
417 F.3d at 323 (footnote omitted). Petitioner points
to the 302 Notes and asserts that Massino was
"certain [Petitioner] did not have anything to do with
the Difalco murder." (Pet Add'm at 12.) In later
filings, however, Petitioner acknowledges that, given
"the lack of any Brady disclosure on this subject," it is
eminently possible that "Massino told the government
that the [302 Notes] were fabricated." 23 (Pet'r Suppl.
Reply at 12; see also May 26, 2006, Amato Brady Mot.
(specifically requesting "any information, whether
reduced to writing or not, reflecting any
inconsistency" between the 302 Notes and Vitale's
testimony about Mas sino's alleged statements).)
The court finds that White's decision not to call
Massino as a defense witness was not objectively
unreasonable. Calling Massino to testify would have
exposed Petitioner to the risk that Massino might
actually corroborate Vitale's testimony. Instead,
White opted to vigorously attack the credibility of all
cooperating witnesses, especially those who (like
Vitale) testified without direct knowledge, or who
(like Massino) did not testify at all. 24 See supra
The Government alleges in its opposition papers that Massino
admitted to making "many false and inaccurate notes on the
Vitale 302s in preparation for his 2004 trial." (Gov't Opp'n at 29.)
Petitioner responds, however, that the court should not rely on
the Government's unsworn allegations. (Pet'r Reply Mem. at 7
n.5.)
23

The court relies primarily on White's conduct at trial as
documented in the record, but notes that the court's
characterization receives indirect support from the White
Declaration. Though White is unable, at this time, to recall the
contemporaneous reasoning behind his decisions at trial (see
White Decl. ¶¶ 5-7), he opines on what his trial strategy would
presumably have been, and offers an account consistent with the
court's summary above: "I [cannot] articulate how I would have
24

66a
Section I. C.1. Both of Petitioner's codefendants
similarly chose not to call Massino as a witness, even
though testimony regarding Mas sino's statements
and conduct played a role in all three cases.
The court notes, in closing, that White did, in fact,
attempt to call Massino as a witness regarding
Vitale's testimony, albeit at a limited evidentiary
hearing, and albeit unsuccessfully. See supra Section
I.C.1.a. Courts have rejected allegations of
ineffectiveness when counsel attempted to pursue the
suggested strategy, even if counsel was ultimately
unsuccessful. See, e.g., United States v. Sessa, No. 92CR-351 (ARR), 2011 WL 256330, at *51 (E.D.N.Y.
Jan. 25, 2011), aff’d. 711 F.3d 316 (2d Cir. 2013)
("[P]etitioner cannot show his counsel was ineffective
for failing to object to the charge where the record
establishes that his objection was carefully
considered by the trial court."); Rosario-Dominguez v.
United States, 353 F. Supp. 2d 500, 515 (S.D.N.Y.
2005) (rejecting a claim of ineffectiveness based on a
failure to challenge the court's calculation of drug
quantity "because the record demonstrates that"
counsel "did argue-albeit unsuccessfully-that the
evidence did not support" the court's calculation).
2. Evidence Concerning Fabio Bartolotta
Petitioner argues that White should have
dedicated additional efforts to painting Bonanno
responded to any inculpatory statement made by Mr. Massino,
other than, I imagine, seeking to challenge its reliability,
veracity and consistency .... I do not recall a specific reason
underlying any decision not to seek to call Mr. Massino as a
defense witness, other than, I imagine, maintaining focus on the
reliability, veracity and consistency of the prosecution
witnesses." (Id. ¶¶ 6-7.)

67a
member Fabio Bartolotta as an alternative suspect
for the DiFalco murder. Bartolotta may have had a
motive to kill DiFalco because Bartolotta had
previously been romantically involved with DiFalco's
daughter and was jealous about her new
relationships, and perhaps also because Bartolotta's
mother had been DiFalco's lover before he began
seeing Cathy Ventimiglia. (Pet'r Decl. at 4, 18-23.)
Petitioner accuses White of"a wholesale failure ... to
investigate or pursue evidence of Bartolotta's
multiple motives for killing Difalco, as well evidence
that he in fact killed him," and argues that White
should have pursued these theories by calling
additional witnesses including Bartolotta himself,
Bartolotta's mother, the man who dated DiFalco's
daughter after Bartolotta, .and other Bonanno
members. (Pet. Add'm at 35; Pet'r Decl. at 21-22.)
Petitioner's accusation is flatly belied by the
record. During the Government's summation at trial,
they noted White's efforts to construct a narrative
"that Fabio Bartolotta was the real killer," and that
he "killed Sammy DiFalco because Fabio Bartolotta
was angry about the fact that Fabio and Sammy's
daughter, Francesca, had stopped dating." (Tr.
3553:25-3554:3.) The Government enumerated the
many factual flaws with this theory, highlighting
evidence that Bartolotta and Francesca DiFalco
stopped dating two years before the murder, that
DiFalco supported their relationship, and that
Bartolotta viewed DiFalco "as a father figure." (Tr.
3554:3-3556:11.) Petitioner has suggested additional
witnesses, but has not explained whether or how their
expected testimony would have addressed those
flaws.

68a
At a higher level of generality, Petitioner dwells on
arguments about Bartolotta's possible motive and
criminal history, but fails to explain how those
elements would exonerate Petitioner as the alleged
orchestrator of the conspiracy. Even if Petitioner is
correct that Tabbita asked one Bonanno associate to
assist with the DiFalco murder "as a favor to
Bartolotta" (Pet'r Decl. at 3 9), and even if it is true
that Bartolotta himself committed the murderous act,
those facts would not necessarily undermine the
Government's theory that Petitioner issued the
original order for DiFalco to be killed. See supra
Section I.C.l.
To prove that White's conduct was objectively
unreasonable, Petitioner would have to overcome
clear precedent establishing a generally deferential
posture toward strategic decisions about specific
witnesses. See Greiner, 417 F.3d at 323; Pierre, 560
F. App'x at 82. To show prejudice, Petitioner would
have to explain how his proposed cumulative
testimony would address the clear limitations of this
"alternative suspect" defense theory. The court fmds
that Petitioner has failed to make a plausible showing
on either prong of the Strickland test.
3. Petitioner's Relationship with the Giannini
Restaurant
Petitioner contends that White failed to
adequately challenge the Government's theory that
Petitioner was effectively a partial owner of the
Giannini restaurant, and that DiFalco served as a
front man. (Pet. Add'm at 34.) Specifically, Petitioner
argues that White should have (1) investigated "a list
of the investors in the restaurant" to "arrange for
their testimony concerning their exclusive ownership

69a
of the restaurant"; and (2) elicited testimony that
Petitioner "regularly worked at the Giannini
Restaurant." (Id. at 33-34; see also id. at 29-31.) This
argument is premised on a misunderstanding of the
Government's theory. Neither of Petitioner's
suggested tactics would have undermined the
Government's key claims.
At trial, multiple Bonanno members testified that
Petitioner "owned" or "controlled" the Giannini
restaurant. (See, e.g., Tr. 1068:12-13 (Tabbita);
1832:19-20 (Lino).) Vitale elaborated that Petitioner
and DiFalco were "partners," and that "they were
getting 50-50 ... [o]fwhatever the business threw off,
whatever the profits of the business were." 25 (Tr.
383:3-5.) These accounts were consistent with
testimony from Special Investigator John Carillo,
who explained that the Bonanno family considered a
business to be "controlled" by one of its members if the
business owner paid for protection against organized
criminal activity, or if the Bonanno member directly
fmanced the business or otherwise profited from it.
(Tr. 260:25-261:19, 266:15-267:5.) Carillo further
explained that a "front man is the person" who owns
the establishment "on paper," even if there are "illegal
monies invested in that business somehow." (Tr.
261:13-16.) The Bonanno member who controls the
location is not necessarily listed as an owner on any
public records. (Tr. 267:2-5.)

This testimony supported the Government's theory that
Petitioner's motive for ordering DiFalco's murder concerned a
dispute about finances at the Giannini restaurant. (See Tr.
389:11-20 (Vitale testimony); Tr. 1087:21-23 (Tabbita
testimony).) See also supra Section I.C.l.
25

70a
It is therefore immaterial whether, as Petitioner
claims, "legitimate businessmen [] had invested in"
the restaurant, or even whether those investors
considered themselves to be the "exclusive owners of
the restaurant" in a legal sense. (Pet. Add'm at 34.) It
is also immaterial whether Petitioner regularly
worked at the restaurant, received a paycheck, or was
listed as an employee in the restaurant's records.
Above-board
investment
and
employment
relationships are not mutually exclusive with underthe-table control relationships. The court fmds that
Petitioner has failed to show either objectively
unreasonable conduct or prejudice regarding White's
decision not to present additional testimony from
Giannini's investors and employees.
4. The Government's Allegations of Suspicious
Conduct
The Government bolstered their case against
Petitioner for the DiFalco murder with four types of
circumstantial evidence concerning Petitioner's
behavior in the weeks following DiFalco's
disappearance. See supra Section I.C.l.c. Petitioner
argues that White should have done more to refute
two of these theories: the "false alibi" theory, and the
theory that Petitioner attempted to divert suspicion
to Cathy Ventimiglia. The court fmds, however, that
Petitioner's challenges fail to satisfy either prong of
the Strickland standard, largely because both
arguments focus on extraneous details that were not
material to the question of Petitioner's guilt.
a. The uFalse Alibi" Theory
The Government accused Petitioner of attempting
to create a false alibi by telling detectives that he was
at the Giannini restaurant on the day of DiFalco's

71a
disappearance. See supra Section I.C.l.c.ii. At trial,
Giannini employee Annunziati testified that he did
not remember Petitioner being present on that day.
Petitioner faults White for not adducing evidence to
confrrm Petitioner's presence at the restaurant.
Petitioner alleges, for example, that if White "had
interviewed Annunziati before the trial, .Annunziati
would have told Mr. White that [Petitioner] did,
indeed, work at the Giannini Restaurant and that he
was at work on the day Difalco went missing." (Pet.
Add'm at 32.) Petitioner further alleges that White
could have elicited similar testimony from Giannini
waiter J airo Gomez and from Cathy Ventimiglia, had
they been called as witnesses. (Id. at 31; Pet'r Decl. at
14.) "This theory," however, "rests on speculation as
to how [these individuals] would have testified, and
fails for lack of any support in the evidence." 26
Eisemann, 401 F.3d at 109. Petitioner submitted
sworn statements from both Giannini employees, but
neither statement addresses Petitioner's presence on
the date of DiFalco's disappearance. (See Ex. 15, Pet'r
Reply (Dkt. 29-15).)
Even if Petitioner is correct as to how these
witnesses might have testified, the issue of
Petitioner's whereabouts on February 27, 1992, is
tangential to the central question of Petitioner's guilt.
Petitioner was accused of ordering DiFalco's murder,
not necessarily of participating physically in the
lethal act. The Government accused Petitioner of
lying to police investigators about his location on the
The Government goes a step further, contending that this
argument "amounts to baseless and unwarranted accusations
that the government's witnesses were lying." (Gov't Opp'n at 42
(footnote omitted).)
26

72a
night of DiFalco's disappearance-and also about
Petitioner's involvement in organized crime-as one of
several instances of allegedly suspicious conduct
supporting his general involvement in the murder.
(Tr. 3538:18-3540:18 (Gov't summation).) Moreover,
with regard to Strickland's prejudice prong, White
countered the Government's accusations by arguing
that certain witnesses had simply misremembered
details from long-ago dates, and that Petitioner would
not have lied to police investigators about such an
easily verifiable fact. (Tr. 3670:22-3671:16 (White
summation).)
Petitioner has not made a plausible showing that
White's response tq this minor piece of circumstantial
evidence was either objectively unreasonable or
prejudicial, particularly in light of the Second
Circuit's instruction that decisions about calling
specific witnesses are "ordinarily not viewed as a
lapse in professional representation." Pierre, 560 F.
App'x at 82 (quoting Best, 219 F.3d at 201).
b. Ventimiglia as an Alternative Suspect
The Government argued that Petitioner
attempted to divert suspicion away from himself by
pointing the attention of Bonanno members and
police investigators toward DiFalco's lover, Cathy
Ventimiglia. Petitioner argues that White should
have made greater efforts to "corroborate[] Mr.
Amato's statement to Detective Vorrnittag that on the
night of'' DiFalco's disappearance, "Difalco had a date
with Cathy Ventimiglia, his mistress." (Pet. Add'm at
33.) In Petitioner's eyes, White should have (1)
"subpoenaed Cathy Ventimiglia" after she "refused to

73a
talk to [White's] investigator," 27 (Id. at 28); and (2)
interviewed "Tarik Abbas, the owner of a flower
shop," who "could have testified that on ... the day
Difalco disappeared, Difalco bought flowers ... to be
delivered that day to Cathy Ventimiglia," (Id. at 33).
Here, as above, Petitioner challenges a type of
decision that is generally committed to trial counsel's
discretion. See Greiner, 417 F.3d at 323; Pierre, 560
F. App'x at 82; see also Greiner, 417 F.3d at 321
("[W]hen there is 'reason to believe that pursuing
certain investigations would be fruitless ... , counsel's
failure to pursue those investigations may not later
be challenged as unreasonable."' (quoting Strickland,
466 U.S. at 691)); Pepe, 542 F. App'x at 56 ("Whether
correct or not, the decision not to subpoena [a witness
who may or may not have been helpful] cannot be
labeled objectively unreasonable." (citing Luciano,
158 F.3d at 660)).
Moreover,
Petitioner
misconstrues
the
Government's theory. "[I]t was irrelevant whether
DiFalco [actually] had plans to meet Ventimiglia the
night he disappeared .... Rather, the relevant issue
was that [Petitioner's] statements to [Detective]
Vormittag [and others] demonstrated his desire to
deflect attention away from himself and blame the
affair for DiFalco's disappearance." (Gov't Opp'n at
40.) Petitioner has failed to explain how either of his
proposed witnesses would have undermined this
Petitioner alleges that Ventimiglia's lawyer met with
Petitioner's defense team on June 8, 2006. (Pet. Add'm at 28.)
Petitioner has submitted handwritten notes, allegedly taken by
White during that meeting, stating that "CV was supposed to
meet Sam the night he disappeared." (Ex. 3, Ltr. with Selected
Exhibits (Dkt. 34-4).)

27

74a
theory, or why his proposed strategy was inherently
superior to White's chosen approach of construing
Petitioner's comments as genuine attempts to be
helpful in the investigation (see Tr. 3667:10-22). The
court sees no plausible basis for fmding that White's
conduct was objectively unreasonable or prejudicial.
D. Allegations Pertaining to the Perrino
Murder
Petitioner lodges two challenges to White's
defense regarding the Perrino murder charge: White
failed to successfully introduce extrinsic evidence of
Vitale's prior inconsistent statements, and declined to
elicit evidence of Vitale's involvement in crimes
beyond those discussed at trial. The court fmds that
neither
accusation
plausibly
establishes
a
constitutional violation.
1. The Precluded Witnesses
Shortly after Vitale testified at trial, White sought
to call three witnesses 28 for the limited purpose of
eliciting extrinsic evidence of Vitale's prior
inconsistent statements regarding the Perrino
murder. (See June 25, 2006, Amato Mot. to Limit
Cross-Ex. (Trial Dkt. 797).) The court granted the
Government's motion to preclude the three witnesses
based, in part, on a fmding that White's crossexamination neither "afford[ed] Vitale with sufficient
opportunity to explain or deny the alleged prior
inconsistent statements," nor "put this court or the
Government on notice" of White's intention to
introduce extrinsic evidence (June 27, 2006, Mem. &
Order (Trial Diet. 807) at 12.) Petitioner argues that
The three potential witnesses were Richard Cantarella, Frank
Coppa, and James Tartaglione.

28

75a
White was constitutionally ineffective because he
failed "to lay a sufficient foundation for the
introduction of [the] prior inconsistent statements." 29
(Pet. Add'm at 16.)
"[W]hile in some instances 'even an isolated error'
can support an ineffective-assistance claim if it is
'sufficiently egregious and prejudicial,' it is difficult to
establish ineffective assistance when counsel's overall
performance indicates active and capable advocacy."
Harrington v. Richter, 562 U.S. 86, Ill (2011) (quoting
Murray v. Carrier, 477 U.S. 478, 496 (1986)). The
court finds that White's conduct with regard to the
three precluded witnesses was not "sufficiently
egregious and prejudicial" to outweigh his vigorous
efforts to impeach Vitale, especially in light of the
court's conclusion that Petitioner has failed to
successfully allege any other instances of
constitutionally ineffective assistance.
With regard to the severity of White's error,
Petitioner argues that the court "made it abundantly
clear ... that the fault for not being able to put on these
critically important witnesses[] lay squarely with Mr.
White." (Pet. Add'm 16.) Petitioner is correct that the
court found White's cross-examination insufficient for
the purpose of giving Vitale an opportunity respond
or of providing notice to the Government and the
On direct appeal, the Second Circuit summarily affirmed this
and other evidentiary rulings, finding "no abuse of discretion or
denial of due process." Amato, 306 F. App'x at 634. Separate
sections of this opinion address Petitioner's allegations of
ineffective appellate counsel, as well as Petitioner's attempt to
relitigate claims already resolved on direct appeal. See infra
Parts V, VI. This section considers only Petitioner's argument
that White was constitutionally ineffective in his conduct at trial
regarding the three potential witnesses.
29

76a
court. (June 27, 2006, Mem. & Order at 9-12.) The
court acknowledged that it was a "close[] question,"
however fuh at 9), and expressed "sympath[y]" for
White's explanation that he had expected the
Government to call the three relevant witnesses "in
its case-in-chief' (Id. at 12). It thus appears that
White's error was likely made in good faith.
Additionally, the error was not the sole basis for the
court's ruling: the court found that "allowing
[Petitioner] to call these witnesses would
substantially burden the Government and sacrifice
the orderly conduct of this trial." (Id. at 13-14.)
The court now turns to the question of prejudice.
Petitioner specifies that his "defense theory" with
regard to the Perrino murder is that Vitale "ordered
and directly participated in the Perrino murder for his
own agenda. Specifically, Vitale ordered the Perrino
murder because of his concern that Perrino would
disclose [Vitale's] and his son's connection with
Perrino." (Pet. Add'm 14-15.) White advanced this
very theory at trial, however. See supra Section
I.C.2.a. Thus, the additional witnesses would have
been merely cumulative. Moreover, as the trial court
noted, the statements White sought to elicit from the
three precluded witnesses "primarily implicate[d] the
collateral matters ofVitale's role, motive and interest
in ordering Perrino's death." 30 (June 27, 2006, Mem.
At some points, Petitioner appears to argue that Vitale's
personal motivations for wanting Perrino killed precluded the
murder from consideration as a Bonanno-related crime under
Petitioner's RICO charge. (See, e.g., Pet. Add'm at 18 n.8
(arguing that "Vitale's personal agenda in ordering Perrino
killed should have been adduced at trial ... for a legal defense to
the crime charged[,] which required the government to prove
that the murder was committed in connection with the business
30

77a
& Order at 13 (emphasis added).) Little of the
proffered testimony addressed the dispositive
question of Petitioner's role as the alleged shooter.
(See Pet. Add'm at 19-21 (describing Vitale's personal
interest in having Perrino killed and his effort to
establish an alibi for the night of the murder).)
To the extent that Petitioner expected one or more
witnesses to testify that Vitale himself was the
shooter, that anticipated testimony was based
entirely on hearsay. (Id. at 21-22.) Petitioner does not
allege that any of the three witnesses had any direct
knowledge of Vitale's or Petitioner's role__or lack
thereof__in the Perrino murder, nor that any of the
three witnesses would have impeached Ambrosino's
testimony corroborating Petitioner's involvement.
The court finds that Petitioner has failed to plausibly
show "a reasonable probability that," had the
additional testimony been offered, the jury "would
have had a reasonable doubt respecting guilt,"
Strickland, 466 U.S. at 695, especially in light of the
discussion below regarding cumulative impeachment
evidence.
2. Additional Impeachment Evidence
Petitioner faults White for not investigating Vitale's
potential role in two murders beyond those to which
of the racketeering enterprise").) Petitioner cites no legal
authority in support of this theory. Moreover, Petitioner has
failed to explain how Vitale's personal stake in the Perrino
murder was inherently separate from-much less inconsistent
with-the Bonanno family's interests. Vitale's personal concerns
with Perrino related to his and his son's criminal activities in
connection with Perrino's work at the New York Post, which was
known to be a component of the overall Bonanno criminal
enterprise.

78a
he had already confessed. (See Pet. Add'm at 23
(criticizing White for not "following up on testimony
attributing to Vitale a role in the [] murder" of Louis
Tuzzio); id. at 24 (Petitioner "has reason to believe
that Vitale also was responsible for the murder of
Willie Boy Johnson.").) Even if Petitioner is correct
that Vitale was involved in both murders, however, he
fails to show constitutional error based on White's
decision to pursue an alternative tack. White took
every opportunity to remind the jury of Vitale's
confessed participation in eleven other murders. (See,
e.g., Tr. 3696:9-14, 3698:20, 3703:1-6, 3704:23-24,
3705:3-5.) Moreover, "counsel for all three [Ursa I]
defendants spent significant portions of their crossexamination discrediting Vitale." (Gov't Opp'n at 32;
see also id. at 31-32 (citing to various examples in the
trial transcript).)
"Counsel's performance cannot be deemed
objectively unreasonable because he failed to pursue
cumulative impeachment." Love v. McCray, 165 F.
App'x 48, 50 (2d Cir. 2006) (summary order) (citing
United States v. Stewart, 433 F.3d 273,315 (2d Cir.
2006); United States v. Wong, 78 F.3d 73, 82 (2d Cir.
1996)). This is particularly true where, as here, White
offered a strategic reason for declining to focus on the
additional murders. (See, e.g., Pet'r Decl. at 36
("White told me that he want[ed] to leave the Tuzzio
murder out of his strategy" because he planned to
paint a picture of Vitale's involvement in "the Perrino
murder ... in a different color [than] Vitale's
involvement in the Tuzzio murder.").) Moreover,
Petitioner has not shown that the cumulative
impeachment would have changed the outcome of the
trial. The court finds that Petitioner has failed to
plausibly satisfy either Strickland prong.

79a
E. Petitioner's Direct Appeal
Petitioner
asserts
that
his
"claims
of
ineffectiveness also include post-trial and appellate
representation." (Pet. Add'm at 3.) "[A] petitioner may
establish constitutionally inadequate performance of
appellate counsel if he shows that counsel omitted
significant and obvious issues while pursuing issues
that were clearly and significantly weaker." Lynch v.
Dolce, 789 F.3d 303, 311 (2d Cir. 2015) (alterations
omitted) (quoting Mayo v. Henderson, 13 F.3d 528,
533 (2d Cir. 1994)). Petitioner does not appear to
plead any relevant facts under this standard.
Petitioner claims only that each "issue he raised on
direct appeal must be considered _anew here because
counsel's representation on appeal was tainted by the
conflict of interests and otherwise was ineffective in
the presentation of the issues." (Pet. Add'm at 3.) The
court considers those arguments below in Part VI's
discussion of the mandate rule, and fmds that
Petitioner has failed to properly allege ineffective
assistance of appellate counsel.
F. Petitioner's Requests for Discovery and
an Evidentiary Hearing
Petitioner has requested discovery and an
evidentiary hearing. (Pet'r Reply Mem. at 12.) The
court fmds that Petitioner has failed to establish the
"plausible claim of ineffective assistance of counsel"
necessary to justify an evidentiary hearing, and
therefore denies both requests. Raysor, 647 F.3d at
494 (citation omitted); Section II.B, supra (noting that
the standard for discovery is stricter than the
standard for a hearing).
"A district court may rely on its own familiarity
with the case and deny [a federal habeas petition]

80a
without a hearing if the court concludes that the
[petition] lacks 'meritorious allegations that can be
established by competent evidence.'" Stokes v. United
States, No. 00-CV -1867 (SAS), 2001 WL 29997, at *2
(S.D.N.Y. Jan. 9, 2001) (quoting United States v.
Aiello, 900 F.2d 528, 534 (2d Cir. 1990)); 28 U.S.C. §
2255(b) (a court need not hold an evidentiary hearing
if '~the motion and the files and records of the case
conclusively show that the prisoner is entitled to no
relief'); see also McLean v. United States, No. 08-CR789 (RJS), 2016 WL 3910664, at *8 (S.D.N.Y. July 13,
2016) (A "hearing is not required 'where the
allegations are insufficient in law, undisputed,
immaterial, vague, palpably false or patently
frivolous."' (quoting United States v. Malcolm, 432
F.2d 809, 812 (2d Cir. 1970))).
The court notes, preliminarily, that Petitioner has
not enumerated a list of "specific facts" to be
adjudicated. LoCascio, 395 F.3d at 57. Rather, he
requests a hearing "on all issues" raised in the
Petition (Pet'r Reply at 2), essentially seeking a full
retrial on collateral review. Petitioner's lack of
specificity hinders the court's efforts to identify
whether any "material facts are in dispute." Raysor,
647 F.3d at 494 (citation omitted); see. e.g., LoCascio,
395 F.3d at 57-58 (ordering a hearing on the issue of
whether, as specifically alleged in an affidavit,
defense counsel received a death threat from the
petitioner's codefendant); Sessa, 2011 WL 256330, at
*57 (noting that the petitioner "provided a list of
twenty-six facts that he wishes to prove at a
hearing").
More fatal to Petitioner's request is his failure to
offer "meritorious allegations that can be established
by competent evidence." Stokes, 2001 WL 29997, at *2

81a
(emphasis added) (quoting Aiello, 900 F.2d at 534).
"In determining [whether a hearing is required,
courts] look 'primarily to the ... evidence proffered in
support of the application in order to determine
whether, if the evidence should be offered at a
hearing, it would be admissible proof entitling the
petitioner to relief.'" LoCascio, 395 F.3d at 57 (quoting
Dalli v. United States, 491 F.2d 758, 760 (2d Cir.
1974)).
Petitioner has submitted or alluded to certain
pieces of competent evidence, but only in support of
facially unpersuasive arguments-for example,
evidence that the Giannini restaurant had legitimate
investors, a fact that would not disprove the
Government's allegations of Petitioner's "control"
relationship. Such arguments, even if fully
substantiated at an evidentiary hearing, would not
entitle Petitioner to habeas relief. See, e.g.,
Broxmeyer, 661 F. App'x at 750 (affirming denial of a
hearing to investigate alleged off-the-record
conversations because "the substance of those
conversations [was] irrelevant" to the legal merits).
Meanwhile, Petitioner's more serious allegations-especially
those
concerning
White's
ethical
obligations to Mas sino-find no factual support in
Petitioner's habeas filings or in the underlying trial
record. These claims rest on an intangible foundation
of conjecture. Such "[a]iry generalities, conclusory
assertions and hearsay statements will not suffice."
Haouari v. United States, 510 F.3d 350, 354 (2d Cir.
2007) (emphasis added) (alterations omitted) (quoting
United States v. Aiello, 814 F.2d 109, 113 (2d Cir.
1987)); see also, e.g., Broxmeyer, 661 F. App'x at 750
(affirming denial of a hearing regarding counsel's
alleged intoxication because the petitioner "presented

82a
no plausible reason to believe that trial counsel was
actually intoxicated during trial or that his
performance fell below an objectively reasonable
level").
Petitioner's claims of ineffective counsel involve
factual questions regarding White's contemporaneous
knowledge and decision making, as outlined above.
The court sought to expand the record on that point
with a declaration from White, who states that he has
"no recollection" of information learned from Massino
or of strategic decisions made during Petitioner's
trial. (See White Decl. ¶¶ 5-7.) See also Chang v.
United States, 250 F.3d 79, 86 (2d Cir. 2001) (A
"district court may use methods under Section 2255
to expand the record without conducting a full-blown
testimonial hearing." (citing Blackledge v. Allison,
431 U.S. 63, 81-82 (1977))). The White Declaration
does not, of its own weight, defeat Petitioner's
arguments, but the declaration does suggest that it
would be futile to call White into court for live
testimony. The court has found that Petitioner's
arguments lack support in the existing record.
White's sworn statement indicates that he has
nothing to add to that record.
"As petitioner has failed to assert plausible claims
or identify legitimately disputed issues of fact, and
because his claims may be evaluated by using his trial
record and other submissions of the parties to this
proceeding, a hearing on his petition is not required."
Sessa, 2011 WL 256330, at *57 (citations omitted).
G. Summary
The court fmds that White's prior representation
of Massino created only a potential conflict of interest
at Petitioner's trial. Therefore, Petitioner bears the

83a
burden of showing that any alleged ineffectivenessconflict__related or otherwise__satisfied Strickland's
requirements
of
objectively
unreasonable
performance by counsel and prejudice to the
defendant. Tueros, 343 F.3d at 592; Pepe, 542 F.
App'x at 56. "In evaluating prejudice," the court is
conscious of its obligation to "look to the cumulative
effect of all of counsel's unprofessional errors."
Gersten v. Senkowski, 426 F.3d 588, 611 (2d Cir.
2005) (citing Lindstadt v. Keane, 239 F.3d 191, 204
(2d Cir. 2001)). Petitioner has identified one sole
instance of clear error on White's part, namely
White's failure to properly lay a foundation for the
introduction of extrinsic evidence. See supra Section
IV.D.1. The court found that error to be neither
egregious in nature nor prejudicial in effect,
particularly in light of White's vigorous advocacy and
clearly defined defense strategies before, during, and
after trial. The court finds, therefore, that Petitioner's
claim of ineffective assistance of counsel fails to meet
the required showing for an evidentiary hearing, and
must be dismissed.
V. OTHER NEW CLAIMS ASSERTED FOR THE
FIRST TIME IN THE INSTANT PETITION
In addition to the claim of ineffective counsel, the
Petition includes two other claims asserted for the
first time on collateral review: Petitioner argues that
the Government unlawfully withheld evidence and
impermissibly relied on a "spy in the camp." (Pet. at
4-5.) As explained above in Section II.A, these claims
"may not be raised on collateral review unless the
petitioner shows cause and prejudice." Massaro, 538
U.S. at 504. The court finds that Petitioner has failed
to show prejudice with respect to either claim, and
therefore the court need not address Petitioner's

84a
proffered "cause" of ineffective counsel. The court
dismisses both claims as procedurally barred.
A. Unlawfully Withheld Evidence
Petitioner accuses the Government of violating the
Fifth and Sixth Amendments by withholding
"important documents and information containing
exculpatory and impeachment information with
respect to the key witnesses ... and the government's
theory of the case." (Pet. at 4.) Petitioner's allegations
under this claim, however, mirror the allegations
under his claim of ineffective assistance of counsel.
That is, Petitioner points to certain evidence that did
not appear at trial and argues both that White was
ineffective for failing to pursue and present it, and
also that the Government violated his rights by
failing to produce it before trial. (See Pet. at 4 (listing,
inter alia, evidence concerning the Government's
"suspicious conduct" theory in the DiFalco murder,
alleged evidence of Massino's prior statements, a
recorded conversation "concerning ... Bartolotta's
anger over an affair his girlfriend (DiFalco's
daughter) was having," and the "identity of the
investors" in the Giannini restaurant); Pet. Add'm at
24-25 (evidence of Vitale's prior inconsistent
statements and his involvement in the Tuzzio
murder); id. at 27-28, 32-33 (evidence concerning the
"suspicious conduct" theory).)
The court need not assess the veracity of
Petitioner's allegations that the Government
impermissibly withheld some or all of the cited
materials. The court has already determined that
Petitioner did not suffer prejudice based on White's
decisions not to present this evidence. See supra
Sections IV.C, D. There is no basis for concluding that

85a
Petitioner suffered prejudice based on the
Government's alleged failure to produce that same
evidence. 31 Petitioner is thus procedurally barred
from asserting this claim.
B. Spy in the Camp
Petitioner accuses the Government of using
cooperating witness Ambrosino as a "spy in the camp"
by "insert[ing] him into the defense camp to read
[Petitioner's] defense materials ... in order to learn
defense strategy and secrets." (Pet. at 5.) "To establish
a [spy in the camp] Sixth Amendment violation,"
Petitioner "would have to show either that privileged
information was passed to the government and
prejudice resulted, or that the government
intentionally
invaded
the
attomey[-]client
relationship and prejudice resulted." United States v.
Baslan, No. 13-CR-220 (RJD), 2014 WL 3490682, at
*3. (E.D.N.Y. July 11, 2014) (quoting United States v.
Massino, 311 F. Supp. 2d 309, 313 (E.D.N.Y. 2004));

The "prejudice" standard under Strickland is effectively
identical to the prejudice standard under the "cause and
prejudice" procedural default standard for Brady claims.
Compare Strickland, 466 U.S. at 695 (A defendant must
establish "a reasonable probability that, absent the errors, the
factfinder would have had a reasonable doubt respecting guilt."),
with Banks v. Dretke, 540 U.S. 668, 691 (2004) (explaining that
"prejudice within the compass of the 'cause and prejudice'
requirement exists when the suppressed evidence is 'material'
for Brady purposes." (citing Strickler v. Greene, 527 U.S. 263,
282 (1999))); Wearry v. Cain, __ U.S. __ , 136 S. Ct. 1002, 1006
(2016) ("Evidence qualifies as material" for Brady purposes
"when there is 'any reasonable likelihood' it could have 'affected
the judgment ofthejury."' (quoting Giglio v. United States, 405
U.S. 150, 154 (1972))).
31

86a
see also United States v. Dien, 609 F.2d 1038, 1043
(2d Cir. 1979).
Petitioner has not alleged that Ambrosino
transferred any privileged information or otherwise
invaded Petitioner's relationship with White.
Petitioner's sole allegation related to this claim is
that, while he and Ambrosino were housed at the
same facility in 2004, they met in the prison library
and had the following exchange: "Ambrosino asked
me if I was going to plead guilty on the Perrino
murder[.] I explained to Ambrosino that I was
shocked by the charges, and that I could not take
responsibility for crimes that I have not committed."
(Pet'r Decl. at 35.) These allegations fail to establish
a prima facie claim of "spy in the camp." As a result,
Petitioner is unable to show prejudice, and this claim
must he dismissed as procedurally barred.
VI.CLAIMS ALREADY RESOLVED ON DIRECT
APPEAL
The Petition reasserts five claims that the Second
Circuit rejected on Petitioner's direct appeal. 32
(Compare Pet. at 6-9 with Amato, 306 F. App'x 630.)
As noted above in Section II.A, the "mandate rule bars
re-litigation of issues already decided on direct
These claims assert denial of Petitioner's rights under the
Fifth and Sixth Amendments based on: (1) the court's exclusion
of Vitale's prior inconsistent statements; (2) the court's
corrective instruction regarding an inaccurate statement during
the Government's rebuttal summation; (3) the jury charge with
respect to the RICO statute of limitations; (4) the Government's
efforts to bolster Tabbita's testimony on redirect and to file a
sealed submission regarding his testimony during the trial; and
(5) the court's instructions regarding the anonymous and
partially sequestered jury. (Pet. at 6-9.)
32

87a
appeal." Yick Man Mui, 614 F.3d at 53 (citations
omitted). "[R]econsideration is permitted only where
there has been an intervening change in the law and
the new law would have exonerated a defendant had
it been in force before the conviction was affirmed on
direct appeal." Reese v. United States, 329 F. App'x
324, 326 (2d Cir. 2009) (summary order) (quoting
Chin v. United States, 622 F.2d 1090, 1092 (2d Cir.
1980)).
Petitioner "contends that he is entitled to raise [his
claims] again in this context because of D counsel's
ineffectiveness in [developing] the record sufficiently"
and "in the appellate argument, due, in part to his
conflict of interests." (Pet. at 6.) District courts in this
jurisdiction agree, however, that a petitioner
generally "may not attempt tore-litigate claims he
already raised on direct appeal by re-styling them as
ineffective assistance claims." 33 King v. United

"The Second Circuit has not specifically addressed whether a
petitioner moving under§ 2255 can reargue the substance of
claims already addressed on direct appeal by couching them in
terms of ineffective assistance of counsel." Barlow v. United
States, No. 13-CV-3315 (JFB), 2014 WL 1377812, at *7 (E.D.N.Y.
Apr. 8, 2014). The Second Circuit has, however, barred
petitioners from asserting on collateral review "a slightly altered
rearticulation of [an ineffectiveness] claim that was rejected on
his direct appeal." Riascos-Prado v. United States, 66 F.3d 30,
34 (2d Cir. 1997). District courts have applied a similar analysis
to petitioners who seek to relitigate other types of substantive
claims by alleging that those claims only failed on direct appeal
due counsel's ineffectiveness. See. e.g., Slevin v. United States,
No. 98-CV-904 (PKL), 1999 WL 549010, at *3-4 (S.D.N.Y. July
28, 1999) (rejecting a habeas petitioner's attempt to relitigate
"issues he already raised on appeal ... by couching them in terms
of ineffective assistance" because "[s]uch claims clearly fall
under the 'slightly altered rearticulation' standard of Riascos33

88a
States, No. 09-CV-4533 (RJD), 2013 WL 530834, at *3
(E.D.N.Y. Feb. 13, 2013).
Petitioner has failed to show that the arguments
he presents on collateral review differ in any material
way from the arguments that were rejected by the
Second Circuit on direct appeal. He has not alleged
specific deficiencies in White's appellate advocacy. He
has not explained how his suggested alternative trial
strategies would have affected the strength of his
arguments on appeal. Nor has he offered any legal
authority in support of his attempt to circumvent the
mandate rule. The court declines to review arguments
that have already been squarely presented to and
rejected by the Second Circuit. These claims are
dismissed.
VII. THE "CUMULATIVE EFFECT" CLAIM
Petitioner alleges that he was denied his Fifth and
Sixth Amendment rights "by the cumulative effect of
the errors in this case." The court has not found
evidence of any constitutional error. Moreover,
Petitioner has failed to cite any legal authority in
support of his "cumulative effect" claim. This claim is
dismissed.
VIII. CONCLUSION
For the reasons stated above. Petitioner's requests
for discovery and an evidentiary hearing are DENIED
and the Petition is DISMISSED. 34

Prado"); Barlow, 2014 WL 1377812, at *7 ("agree[ing] with the
analysis in Slevin").
Petitioner filed identical habeas petitions on both his criminal
and habeas dockets. This order resolves both instances of the
34

89a
SO ORDERED.
Dated:

Brooklyn, New York
April 5, 2017
s/Nicholas G. Garaufis
NICHOLAS G. GARAL
United States District Judge

Petition: Mot. to Vacate (Dkt. 1), Case No. ll-CV-5355, and Mot.
to Vacate (Dkt. 1096), Case No. 03-CR-1382-13.

90a
[ENTERED MAY 20, 2019]
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 20th day of May, two
thousand nineteen.
________________________________________
Baldassare Amato,
Petitioner - Appellant,
v.

ORDER
Docket No: 17-1782

United States of America,
Respondent - Appellee.
_______________________________________
Appellant, Baldassare Amato, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

